<html>
<title> - THE FUTURE OF NASA: PERSPECTIVES ON STRATEGIC VISION FOR AMERICA'S SPACE PROGRAM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                  THE FUTURE OF NASA: PERSPECTIVES ON 
                         STRATEGIC VISION FOR  
                        AMERICA'S SPACE PROGRAM 

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                      WEDNESDAY, DECEMBER 12, 2012

                               __________

                           Serial No. 112-110

                               __________

 Printed for the use of the Committee on Science, Space, and Technology

       Available via the World Wide Web: http://science.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

77-034 PDF                       WASHINGTON : 2013 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               BEN R. LUJAN, New Mexico
RANDY NEUGEBAUER, Texas              PAUL D. TONKO, New York
MICHAEL T. McCAUL, Texas             JERRY McNERNEY, California
PAUL C. BROUN, Georgia               TERRI A. SEWELL, Alabama
SANDY ADAMS, Florida                 FREDERICA S. WILSON, Florida
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee                        VACANCY
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY



                            C O N T E N T S

                      Wednesday, December 12, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    10
    Written Statement............................................    12

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    12
    Written Statement............................................    14


                               Witnesses:

Maj. Gen. Ronald Sega, USAF (Ret), Vice Chair, National Research 
  Council Committee on NASA's Strategic Direction
    Oral Statement...............................................    17
    Written Statement............................................    20

The Honorable Robert Walker, Wexler & Walker
    Oral Statement...............................................    27
    Written Statement............................................    30

The Honorable Marion C. Blakey, President & CEO, Aerospace 
  Industries Association
    Oral Statement...............................................    33
    Written Statement............................................    35

Dr. Thomas Zurbuchen Ph.D, Professor for Space Science and 
  Aerospace Engineering, Associate Dean for Entrepreneurial 
  Programs, University of Michigan
    Oral Statement...............................................    46
    Written Statement............................................    49

Dr. Scott Pace, Ph.D, Director, Space Policy Institute, The 
  George Washington UniversityTruth in Testimony
    Oral Statement...............................................    63
    Written Statement............................................    65

             Appendix I: Answers to Post-Hearing Questions

Maj. Gen. Ronald Sega, USAF (Ret), Vice Chair, National Research 
  Council Committee on NASA's Strategic Direction................   114

The Honorable Robert Walker, Wexler & Walker.....................   116

The Honorable Marion C. Blakey, President & CEO, Aerospace 
  Industries Association.........................................   117

Dr. Thomas Zurbuchen Ph.D, Professor for Space Science and 
  Aerospace Engineering, Associate Dean for Entrepreneurial 
  Programs, University of Michigan...............................   119

Dr. Scott Pace, Ph.D, Director, Space Policy Institute, The 
  George Washington UniversityTruth in Testimony.................   121

            Appendix II: Additional Material for the Record

Submitted Statement for the Record by Representative Jerry 
  Costello, Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   130


                  THE FUTURE OF NASA: PERSPECTIVES ON
                          STRATEGIC VISION FOR
                        AMERICA'S SPACE PROGRAM

                              ----------                              


                      WEDNESDAY, DECEMBER 12, 2012

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Ralph Hall 
[Chairman of the Committee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Hall. Okay. Good morning to everyone. The 
Committee on Science, Space, and Technology will come to order. 
Welcome to today's hearing entitled ``The Future of NASA: 
Perspectives on Strategic Vision for America's Space Program'' 
is our topic for today, and in front of you are packets 
containing the written testimony, biographies and the Truth in 
Testimony disclosures for today's witnesses.
    Before I get into my opening statement, I want to say a few 
words about some folks on this Committee. I don't believe 
hardly any of them are here, and maybe we ought to wait until 
they show, but I want to talk about Roscoe Bartlett and Judy 
Biggert, Todd Akin, Sandy Adams, Ben Quayle, Chip Cravaack; on 
the Democratic side, Jerry Costello, about as kind and classy 
guy as you will ever know is not coming back to use, and Hanson 
Clarke of Michigan. Of course, Lynn Woolsey, she is usually 
here to fuss at me. I proposed to her three times and she 
turned me down four. But they will be here in a little bit.
    In the meantime, let me recognize the next Chairman of this 
Committee, a long, long-term friend of mine, a person I 
absolutely couldn't do without, wouldn't want to be in Congress 
if he were not in Congress with me, my friend from San Antonio 
who will be chairing this Committee for probably the next ten 
years, and I am going to be right with him. We hope we can do 
some things to EPA. We hope we can work on a health bill. We 
hope we can do a lot of things together. Mr. Chairman, I am 
honored to have you.
    I guess I can go on and just read for the record. What do 
you think I ought to do, Eddie? Wait until they get here? I 
will go on with my opening statement.
    Ms. Johnson. We have an organization meeting, so they 
probably will not be coming.
    Chairman Hall. Okay.
    Ms. Johnson. A caucus organization, a committee.
    Chairman Hall. This is the first opening statement I have 
had that is 1,020 pages. I read well from a printed page. It is 
not going to take me very long, and they are beginning to show, 
so I recognize myself for five minutes or so for an opening 
statement.
    And I say once again good morning, and welcome to today's 
hearing. I want to especially recognize some of our colleagues, 
and our colleague and friend, Robert Walker, the former 
Chairman of this Committee for many years, for agreeing to 
testify here today. Bob, it is good to see you and I thank you 
and the other witnesses for being with us. I recognize that it 
takes a lot of time and effort goes into the preparation of 
hearing testimony. I want you all to know that your expert 
knowledge and your vast experience is very useful to the 
Committee. Without you, we could not have a bill nor have a 
recommendation for the future. As we consider legislation, we 
also thank you for taking the time to appear here today.
    There are a number of significant issues confronting NASA 
and its space program: a diminishing number of missions under 
development in the space sciences area; an aeronautics budget 
that can no longer support full-scale demonstration flights; 
and no clearly articulated vision for our human exploration 
program beyond the International Space Station. And that 
International Space Station to me is the number one. We have 
got to get there first and have some security there before we 
can even think about the other. We can think about it and may 
have some plans for it, but with regard to human space flight, 
during the national debate following the Columbia accident 
nearly ten years ago, we emerged with guiding principles and 
goals that were overwhelmingly endorsed by both Republicans and 
Democrats in the House and Senate, resulting in the NASA 
Authorization Acts of 2005 and 2008. Even though funding was 
often less than many of us recommended, there was a consensus 
on the overall strategic direction. That consensus was short-
lived when the Administration, with no notice, abruptly 
canceled Constellation via submission of the fiscal year 2011 
budget. The current agreement, if it can be called that, is not 
a consensus as much as it is a compromise. No one got 
everything they wanted, but the lack of a clear consensus 
grounded in an agreement on national priorities resulted in no 
effective way to prioritize the many competing demands. It has 
been clear over the last few budget cycles that there are 
fundamental disagreements. Constellation was an integrated 
development plan to first replace the space shuttle's access to 
the space station in low-Earth orbit and then evolve over there 
into heavy-lift rockets allowing NASA take longer strides and 
once again reach beyond low Earth to the Moon and then on 
beyond.
    At Congress's insistence the present compromise includes a 
heavy-lift rocket development program, but the general lack of 
consensus on goals and destination has sown the seeds for 
disappointment as three large development programs, the Space 
Launch System, the Orion crew capsule and the Commercial Crew 
program compete for the same diminishing resources in NASA's 
Exploration Systems budget. Since the Commercial Crew program 
supports the ISS, perhaps it should more appropriately be 
funded by the Space Operations budget. The Administration, 
Congress and NASA should all look for ways to eliminate waste 
and duplication.
    We are in a very challenging budget environment, and that 
will be with us for some time, for the next several years. 
Fiscal realities demand that NASA become more efficient and 
sized correctly to accomplish its goals, but consensus will 
have to be reestablished among the agency's stakeholders to 
comply and also to clarify NASA's strategic vision, their goals 
and their missions.
    The good work that NASA has done, and that NASA can do in 
the future, is so very important to me and to us, to everyone 
here in this room. I want to preserve our International Space 
Station, and as a strategic goal to go beyond it. But it is not 
likely with this Congress and this electorate that we can 
expect vast sums for the moon, Mars, or an asteroid. We can't 
go to Mars until our people can go to the grocery store. In 
other words, it is about the economy. The economy has to 
improve before NASA funding increases. I want us to work 
together to ensure that the American people get the kind of 
results that NASA is capable of producing and has demonstrated 
so often. We have a very distinguished panel of witnesses today 
and I look forward to this hearing and should really spark a 
much-needed national dialogue about NASA's future. This group 
is uniquely qualified to start this very important discussion 
by sharing their own perspectives about the strategic direction 
of America's space program.
    That concludes my remarks.
    [The prepared statement of Mr. Hall follows:]
               Prepared Statement of Chairman Ralph Hall
    Good morning, and welcome to today's hearing. I want to especially 
recognize our colleague and friend, The Honorable Robert Walker, the 
former Chairman of this Committee, for agreeing to testify here today. 
Bob it's good to see you. But I thank all our witnesses for being with 
us. I recognize that a lot of time and effort goes into the preparation 
of hearing testimony. I want you all to know that your expert knowledge 
and vast experience is very useful to this Committee and Congress as we 
consider legislation, so thank you for taking the time to appear here 
today.
    There are a number of significant issues confronting NASA and its 
space program: a diminishing number of missions under development in 
the space sciences arena; an aeronautics budget that can no longer 
support full-scale demonstration flights; and no clearly articulated 
vision for our human exploration program beyond the International Space 
Station.
    With regard to human space flight, during the national debate 
following the Columbia accident nearly ten years ago, we emerged with 
guiding principles and goals that were overwhelmingly endorsed by both 
Republicans and Democrats in the House and Senate, resulting in the 
NASA Authorization Acts of 2005, and 2008. Even though funding was 
often less than many of us recommended, there was a consensus on the 
overall strategic direction. That consensus was short lived when this 
Administration, with no notice, abruptly canceled Constellation via 
submission of the FY2011 budget. The current agreement--if it can be 
called that--is not a consensus as much as it is a compromise. No one 
got everything they wanted, but the lack of a clear consensus--grounded 
in an agreement on national priorities--resulted in no effective way to 
prioritize the many competing demands. It has been clear over the last 
few budget cycles that there are fundamental disagreements.
    Constellation was an integrated development plan to first replace 
the space shuttle's access to the space station in low Earth orbit and 
then evolve over time into heavy-lift rockets allowing NASA take longer 
strides and once again reach beyond low Earth orbit, to the Moon and 
beyond. At Congress's insistence the present compromise includes a 
heavy lift rocket development program, but the general lack of 
consensus on goals and destination has sown the seeds for 
disappointment as three large development programs, the Space Launch 
System, the Orion crew capsule, and the Commercial Crew program compete 
for the same diminishing resources in NASA's Exploration Systems 
budget. Since the Commercial Crew program supports the ISS, perhaps it 
should more appropriately be funded by the Space Operations budget. The 
Administration, Congress, and NASA should all look for ways to 
eliminate waste and duplication.
    We are in a very challenging budget environment that will be with 
us for the next several years. Fiscal realities demand that NASA become 
more efficient and sized correctly to accomplish its goals, but 
consensus will have to be re-established among the agency's 
stakeholders to clarify NASA's strategic vision, goals, and missions.
    The good work that NASA has done, and that NASA can do in the 
future, is so important to me. I want to preserve our International 
Space Station, and as a strategic goal to go beyond it. But it's not 
likely with this Congress--and this electorate--that we can expect vast 
sums for the Moon, Mars, or an asteroid. We can't go to Mars until our 
people can go to the grocery store. In other words, it's about the 
economy. The economy has to improve before NASA funding increases. I 
want us to work together to ensure that the American people get the 
kind of results that NASA is capable of producing and has demonstrated 
so often. We have a very distinguished panel of witnesses today and I 
look forward to this hearing sparking a much-needed national dialogue 
about NASA's future. This group is uniquely qualified to start this 
very important discussion by sharing their own perspectives about the 
strategic direction of America's space program.

    Chairman Hall. I now recognize Mrs. Johnson for her opening 
statement.
    Ms. Johnson. Thank you very much, Mr. Chairman, and good 
morning to all. I want to particularly welcome our witnesses, 
and a former Chair that I previously served with, and I look 
forward to all of the testimony. At this time the Democratic 
Caucus is having a meeting, an organizational meeting that 
started--it was supposed to start at nine but because of the 
lateness of the ranking member meeting, it started a little bit 
late--so our Members that are returning and concerned about 
what committees they are going to be on for the next time will 
probably not be here today.
    Today's hearing is an important one for the Committee, 
because NASA is a critical part of the Nation's research and 
development enterprise, as well as being a source of 
inspiration for our young people and a worldwide symbol of 
American technological prowess, leadership and goodwill. We 
want NASA to succeed in its endeavors, because its success 
benefits our Nation in many, many ways.
    In establishing NASA through the Space Act of 1958, 
Congress directed the agency to contribute materially to the 
preservation of the role of the United States as a leader in 
aeronautical and space science and technology and in the 
application thereof to the conduct of peaceful activities 
within and outside the atmosphere. Successive NASA 
Authorization Acts over the years have stressed the need for a 
balanced program of science, aeronautics, technological 
research, and human spaceflight and exploration. The result has 
been that this balanced program has given advances that have 
enhanced knowledge, promoted innovation and economic vitality, 
inspired our youth, and deepened our understanding of the Earth 
and environment.
    However, in recent years NASA's ability to carry out its 
missions has been eroded. In that regard, it is estimated that 
NASA's purchasing power has actually decreased by about 18 
percent in constant dollars from fiscal year 1992 to fiscal 
year 2012 in spite of the agency being given a number of major 
initiatives to carry out over that same period. In fact, last 
year's appropriated budget was about $1 billion less than in 
fiscal year 2010. The cumulative impact of this budgetary 
instability has been felt by all of NASA's programs and its 
institutional infrastructure, a problem also highlighted by 
NASA's Inspector General in a recent report. And we will hear 
similar concerns raised by the National Research Council 
witness today, as he discusses his panel's recently released 
report.
    Ironically, the issues considered by the NRC panel are not 
new to this Committee. We have heard them raised in one form or 
another in both this and previous Congresses. I hope that the 
findings of the NRC panel's assessment will encourage both the 
Administration and Congress to put NASA on a firmer footing and 
to recognize NASA for the national asset that it is.
    While NASA's programs are funded as part of the federal 
domestic discretionary budget, we should not forget that those 
programs are long-term R&D undertakings, and they can't just be 
turned on and off whenever we have a short-term fiscal issue 
needing attention, not if we want them to be successful and not 
if we want to maintain our commitment to the dedicated 
workforce that is trying to bring them to fruition. That is a 
challenge we are going to face in the coming months and years 
as we work to put the Nation's financial house in order. 
Because we forget at our peril the hard reality that 
investments in R&D and innovation, such as in the programs and 
projects carried out at NASA are just that--investments--
investments in our Nation's future and in the future of our 
children.
    It may only be in retrospect that we will learn the true 
costs of walking away from investments in R&D agencies such as 
NASA, but I firmly believe that those costs will be high and 
long-lasting if we go down such a destructive path. I hope we 
don't do so, because other nations increasingly recognize the 
benefits that a strong and active space program can deliver, 
and as a result we see them being willing to make the necessary 
investments to build their capabilities, even in the days of 
austerity.
    Mr. Chairman, our leadership and preeminence in space and 
aeronautics are at stake. Our children's future jobs and long-
term global competitiveness are at stake. Resting on our 
laurels from prior accomplishments is not an option, whether in 
science, aeronautics, or human exploration. That is not to say 
that we shouldn't do all we can to encourage efficiencies in 
NASA's programs and infrastructure and eliminate waste wherever 
we find it. But all of those efficiencies will be for naught if 
we do not also recognize that sustained investments in 
research, technology and development must also be made if NASA 
is to succeed.
    Mr. Chairman, before I conclude my remarks, allow me to 
take a moment to thank Mr. Costello, Ms. Woolsey, Mr. Miller, 
and Mr. Clarke for their service to our Nation. Each of them 
will be departing the House of Representatives at the 
completion of the 112th Congress, and I want to wish them well. 
They have been thoughtful and hardworking Members of our 
Committee caucus, and I shall miss them.
    And with that, I yield back the balance of my time.
    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Ranking Member Eddie Bernice Johnson
    Good morning. I want to join Chairman Hall in welcoming our 
witnesses. And in particular, I want to welcome former Chairman Walker 
back to the Committee. I look forward to each of your testimonies.
    Today's hearing is an important one for the Committee, because NASA 
is a critical part of the Nation's research and development enterprise, 
as well as being a source of inspiration for our young people and a 
worldwide symbol of American technological prowess, leadership, and 
good will. We want NASA to succeed in its endeavors, because its 
success benefits our nation in so many ways.
    In establishing NASA through the Space Act of 1958, Congress 
directed the agency to ``contribute materially'' to ``The preservation 
of the role of the United States as a leader in aeronautical and space 
science and technology and in the application thereof to the conduct of 
peaceful activities within and outside the atmosphere.''
    Successive NASA Authorization Acts over the years have stressed the 
need for a balanced program of science, aeronautics, technological 
research, and human space flight and exploration. The result has been 
that this balanced program has driven advances that have enhanced 
knowledge, promoted innovation and economic vitality, inspired our 
youth, and deepened our understanding of the Earth and its environment.
    However, in recent years NASA's ability to carry out its missions 
has been eroded. In that regard, it's estimated that NASA's purchasing 
power has actually decreased by about 18 % in constant dollars from FY 
1992 to FY 2012 in spite of the agency being given a number of major 
initiatives to carry out over that same period. In fact, last year's 
appropriated budget was about $1 billion less than in FY 2010. The 
cumulative impact of this budgetary instability has been felt by all of 
NASA's programs and its institutional infrastructure, a problem also 
highlighted by NASA's Inspector General in a recent report. And we will 
hear similar concerns raised by the National Research Council witness 
today, as he discusses his panel's recently released report.
    Ironically, the issues considered by the NRC panel are not new to 
the Committee. We have heard them raised in one form or another in both 
this and previous Congresses. I hope that the findings of the NRC 
panel's assessment will encourage both the Administration and Congress 
to put NASA on a firmer footing and to recognize NASA for the national 
asset that it is.
    While NASA's programs are funded as part of the Federal domestic 
discretionary budget, we should not forget that those programs are 
long-term R&D undertakings, and they can't just be turned on and off 
whenever we have a short-term fiscal issue needing attention-not if we 
want them to be successful, and not if we want to maintain our 
commitment to the dedicated workforce that is trying to bring them to 
fruition. That is a challenge we are going to face in the coming months 
and years as we work to put the nation's financial house in order. 
Because we forget at our peril the hard reality that investments in R&D 
and innovation, such as in the programs and projects carried out at 
NASA are just that--investments--investments in our nation's future and 
in the future of our children.
    It may only be in retrospect that we will learn the true costs of 
walking away from investments in R&D agencies such as NASA-but I firmly 
believe that those costs will be high and long-lasting if we go down 
such a destructive path. I hope we don't do so, because other nations 
increasingly recognize the benefits that a strong and active space 
program can deliver, and as a result we see them being willing to make 
the necessary investments to build their capabilities.
    Mr. Chairman, our leadership and preeminence in space and 
aeronautics are at stake. Our children's future jobs and long-term 
global competitiveness are at stake. Resting on our laurels from prior 
accomplishments is not an option, whether in science, aeronautics, or 
human exploration.
    That is not to say that we shouldn't do all we can to encourage 
efficiencies in NASA's programs and infrastructure and eliminate waste 
wherever we find it. But all of those efficiencies will be for naught 
if we do not also recognize that sustained investments in research, 
technology, and development must also be made if NASA is to succeed.
    Mr. Chairman, before I conclude my remarks, allow me to take a 
moment to thank Mr. Costello, Ms. Woolsey, Mr. Miller, and Mr. Clarke 
for their service to our nation. Each of them will be departing the 
House of Representatives at the completion of the 112th Congress, and I 
want to wish them well. They have been thoughtful and hardworking 
Members of our Committee caucus, and I shall miss them.

    Chairman Hall. The gentlelady yields back.
    If there are other Members who wish to submit additional 
opening statements, your statements will be added to the record 
at this point.
    Chairman Hall. We have some of our departing Members here, 
and I think it is time to say a few words about them before I 
start my opening statement and before we introduce the 
witnesses properly. I would like to say a few words about 
several Members of our Committee and thank them for their 
dedication to the Congress and to the Science, Space, and 
Technology Committee. On the Republican side, Roscoe Bartlett--
I don't know if Roscoe is here or not, but Roscoe, I always 
enjoy telling him he is too old to be here. His questions give 
me more information than the answers he elicits, but he is a 
great Member, and I am both surprised and disappointed that he 
was defeated, and I am proud and pray for whoever is going to 
take his place, if they yield the service that that old fellow 
yielded.
    And then of course, Judy Biggert, we all know had her 
national lab in Argonne, and an outstanding Member. We were 
conferees on the National Defense Act. I found Judy on the 
right side of everything, and we are really, really going to 
miss her.
    Todd Akin of Missouri had a strong showing for the Senate 
and had some rocks and handicaps along the way but he is a good 
man. He served well for us, and people kept writing to me 
telling me to put him off this Committee, and I said time and 
time again, if I could put anybody off the Committee, I would 
put Sensenbrenner off or Eddie Bernice or somebody, but we 
don't have the right to put anybody off, and we couldn't do 
without Sensenbrenner. He is still here.
    Mr. Sensenbrenner. Yes.
    Chairman Hall. And doing a good job.
    Sandy Adams of Florida is still young enough to continue 
her fight for NASA and for the Kennedy Space Center. She did a 
good job of that.
    Ben Quayle, young man, he is not here either today but I 
knew his father so well. I spent 7 or 8 days in Russia with his 
dad, and I was with him when he made a speech to the retiring 
editors and the retiring school people there, all of them 
Communist, and he was making his speech and he made the mistake 
of opening it up for questions, and the way Russians ask 
questions, they make about a 15-minute speech and then get into 
their question, but after their speech they said if you love us 
so much, why do you still have all those guns pointed toward 
us, and Dan and I were way back down away from them, there was 
a rail between us, and they couldn't hear what I said to him. I 
said ``Tell the SOB you don't trust him,'' and Dan said if I 
ever did him like that again, he would get up and walk out of 
there because he said he would laugh and they would run both of 
us out there. But he made a good speech back to them and told 
them they had a place at the table and he believed that one day 
they would be there. His son is a very fine young man, did a 
wonderful job as vice chairman of this Committee, and we will 
miss that young man.
    How do you lose a guy like Chip Cravaack? A Navy fighter 
pilot--I don't hold that against him--for many years as an 
airline pilot, very knowledgeable, fought for everything that 
was right. He served with me on a--I believe we served together 
on the Transportation Committee.
    Jerry Costello, there is no more classy guy anywhere than 
Jerry. He is going back to Illinois. We are going to really 
miss him, miss his work here and miss his friendship.
    Lynn Woolsey--is Lynn here yet? She is not here.
    Brad Miller of North Carolina--Brad and I have gone at it 
several times. I have learned something from him, several 
things. He is a class guy. He goes back to one of the better 
law practices in North Carolina. All my folks coming from 
Cannon Mills, Kannapolis, not very far, Brad, from where you 
live. You are young enough to come back, and I wish you well 
and we will miss you on this Committee. You have been a great 
Member.
    And Hanson Clarke. We did a launch together and he was a 
great guy.
    It is an honor to serve on this Committee with all of you. 
Your dedication, experience and wisdom is going to be deeply 
missed by this Congress and the next Congress, but no matter 
what they go to next, they will always be friends and 
colleagues, and I look forward to seeing them back. Maybe we 
will ask them to testify like we have asked Bob Walker here to 
testify today. And Ms. Johnson, again, I thank you for yielding 
back.
    At this time I would like to introduce our panel of 
witnesses. The Hon. Robert S. Walker needs little introduction 
in this room. As the former Chairman of this Committee, Bob led 
this Committee from 1995 to 1997, and since retiring from 
Congress after 20 years of elected office, he is now the 
Executive Chairman of Wexler & Walker Public Policy Associates.
    Our next witness is retired Major General Ronald Sega. 
General Sega is here today in his capacity as the Co-Chair of 
the National Research Council Committee on NASA's Strategic 
Direction. General Sega currently serves as Vice President and 
Enterprise Executive for Energy and the Environment for 
Colorado State University and Ohio State University. He led a 
very distinguished career in the U.S. Air Force and at NASA, 
mostly recently as Under Secretary of the Air Force, DOD 
Executive for Space, and prior to that, as Director of Defense 
Research and Technology. As an astronaut, General Sega flew two 
space shuttles, STS-60 in 1994 and STS-76 in 1996, and General, 
we certainly welcome you.
    We next welcome the Hon. Marion Blakey, who is the 
President and CEO of Aerospace Industries Association 
representing more than 150 leading aerospace manufacturers. 
Prior to AIA, Mrs. Blakey served a five-year term as 
Administrator of the FAA, and before that, as Chairman of the 
National Transportation Safety Board. Mrs. Blakey, we do really 
welcome you.
    And our next witness is Dr. Thomas Zurbuchen, Associate 
Professor for Space Science and Aerospace Engineering at the 
University of Michigan. He is a specialist in robotic 
exploration in space and team leader for the development of the 
Fast Imaging Plasma Spectrometer on the Messenger spacecraft in 
orbit around the planet Mercury, and we certainly welcome you.
    And our next witness, Dr. Scott Pace, is the Director of 
the Space Policy Institute and a Professor in the practice of 
international affairs at George Washington's Elliott School of 
International Affairs. From 2005 to 2008, he served as the 
Associate Administrator for Program Analysis and Evaluation at 
NASA. Prior to that, he was Assistant Director for Space and 
Aeronautics in the White House Office of Science and Technology 
Policy. Dr. Pace, we welcome you as well.
    And as our witnesses should know, testimony is limited to 
five minutes, after which the Members of the Committee will 
have five minutes each to ask questions, and you are not just 
held to five minutes. Your time is valuable. You took your time 
to prepare to come here. It took you years to get prepared to 
be asked to come here, and you are here, and your time is very, 
very important. We won't hold you to the five minutes. Just do 
your best. Our Committee protocol dictates that we recognize 
the former Science Chairman, Bob Walker, as our first witness, 
but we have talked and discussed, and I know from reading the 
testimony that he refers to many of the details in the NRC 
report. With his indulgence and with our discussion, at his 
suggestion, I think it would be useful to hear General Sega 
describe the NRC's findings, and then turn to Chairman Walker 
and the other witnesses for their testimony. Do I hear an 
objection? The Chair hears none.
    General Sega, the Committee now recognizes you for five 
minutes to present your testimony.

              STATEMENT OF MAJ. GEN. RONALD SEGA,

       USAF (RET), VICE CHAIR, NATIONAL RESEARCH COUNCIL

            COMMITTEE ON NASA'S STRATEGIC DIRECTION

    General Sega. Mr. Chairman, Ranking Member Johnson, Members 
of the Committee, colleagues, I am Ron Sega, Vice Chair of the 
National Research Council's Committee on NASA's Strategic 
Direction. On behalf of Al Carnesale, chair of the committee, 
and our 12 members, it is my pleasure to come before you today 
to speak to you about the work of our committee.
    Our committee was charged with considering the strategic 
direction of the agency as set forth most recently in the 2011 
NASA Strategic Plan and other relevant statements of space 
policy issued by the President of the United States.
    We were also charged with considering the goals of the 
agency as set forth in the 1958 National Aeronautics and Space 
Act as well as recent legislation, and with assessing the 
relevance of NASA's goals and national priorities.
    Finally, we were charged with recommending how NASA could 
establish and effectively communicate a common, unifying vision 
for NASA's strategic direction that encompasses NASA's varied 
missions. Our committee was not charged with establishing 
strategic goals for NASA, and we did not do so.
    Our committee consists of members from industry and 
academia, former NASA aerospace officials and former analysts 
and experts from both the executive and legislative branches.
    We met five times throughout 2012. The committee received 
input from nearly 800 members of the public through a web-based 
questionnaire, and small groups of Committee Members visited 
each of the nine NASA field centers and the Jet Propulsion 
Laboratory. The resulting report entitled: ``NASA's Strategic 
Direction and the Need for a National Consensus'' is a 
consensus report by the committee.
    As I am sure you are aware, NASA has been tugged in 
multiple directions for the past several years. Despite a 
turbulent policy environment, the agency has made many 
astonishing accomplishments. There remains, however, a lack of 
consensus on the agency's future direction among the United 
States political leadership. Without such a consensus, the 
agency cannot be expected to develop or work effectively toward 
long-term priorities. In addition, there is a mismatch between 
the portfolio of programs assigned to the agency and the budget 
allocated by Congress. What we found during the course of our 
deliberations was rather obvious: although NASA develops a 
strategic plan on a regular basis, the agency itself does not 
establish its strategic goals. Those are developed by the 
national leadership, and key stakeholders within the national 
leadership do not always agree on the goals the agency should 
pursue.
    Thus, our committee recommends that the Administration 
should take the lead in forging a new national consensus on 
NASA's future that is stated in terms of a set of clearly 
defined strategic goals and objectives. This process should 
apply both within the Administration and between the 
Administration and Congress and should be reached only after 
meaningful technical consultations with the private sector and 
potential international partners.
    The strategic goals and objectives should be ambitious yet 
technically rational and should focus on the long term. 
Following the establishment of a new consensus on the agency's 
future, NASA should establish a new strategic plan that 
provides a framework for decisions on how the agency will 
pursue its strategic goals and objectives, allows for flexible 
and realistic implementation, clearly establishes agency-wide 
priorities to guide the allocation of resources within the 
agency budget, and presents a comprehensive picture that 
integrates the various fields of aeronautics and space 
activities.
    To reduce the mismatch between the agency's activities and 
the resources allocated to it, the White House, Congress and 
NASA, as appropriate, could employ any or all of the following 
four non-mutually exclusive options. The committee does not 
recommend any one option or combination of options, but 
presents these to illustrate the scope of decisions and trades 
that could be made.
    Option 1: Institute an aggressive restructuring program to 
reduce infrastructure and personnel costs to improve 
efficiency. Option 2: Engage in and commit for the long term to 
more cost-sharing partnerships with other government agencies, 
private sector industries and international partners. Option 3: 
Increase the size of the NASA budget. Option 4: Reduce 
considerably the size and scope of elements of NASA's current 
program portfolio to better fit the current and anticipated 
budget profile. This would require reducing or eliminating one 
or more of NASA's current portfolio elements--human 
exploration, Earth and space science, aeronautics and space 
technology--in favor of the remaining elements. Each of these 
sample options, with the possible exception of option 2, would 
require legislative action.
    Our recommendation with respect to NASA centers states 
first: The Administration and Congress should adopt regulatory 
and legislative reforms that would enable NASA to improve the 
flexibility of the management of its centers. Second, NASA 
should transform its network of field centers into an 
integrated system that supports its strategic plan and 
communications strategy and advances its strategic goals and 
objectives.
    With regard to partnerships, the committee recommends NASA 
should work with other government agencies with 
responsibilities in aeronautics and space to more effectively 
and efficiently coordinate the Nation's aeronautics and space 
activities, and the United States should explore opportunities 
to lead a more international approach to future large space 
efforts, both in the human space program and in the science 
program.
    The committee was impressed with the quality of personnel 
and the level of commitment of NASA's civil service and 
contractor staffs and with the superb work done by the agency 
in general. However, the committee also heard about the 
frustration of many staff with the agency's current path and 
the limitations imposed upon it by the inability of the 
national leadership to agree upon a long-term direction for the 
agency. Only with a national consensus on the agency's future 
strategic direction, along the lines described in this report, 
can NASA continue to deliver the wonder, the knowledge, the 
national security and economic benefits, and the technology 
that typified its history.
    Thank you for the opportunity to testify. I would be 
pleased to respond to any questions the Committee might have.
    [The prepared statement of General Sega follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Hall. Thank you, General, and we will have 
questions.
    It gives me pleasure now to recognize the Hon. Robert 
Walker, the distinguished former Chairman of the Committee. I 
listened to Bob as a Democrat, I listened to him as a 
Republican, and I respected him always. We recognize you for 
five minutes or as long as you might take, Bob.

           STATEMENT OF THE HONORABLE ROBERT WALKER,

                        WEXLER & WALKER

    Mr. Walker. Well, thank you very much, Chairman Hall and 
Ranking Member Johnson, distinguished Members of the Committee. 
Thank you for the warm welcome back to this Committee room.
    Chairman Hall, I want to first congratulate you for the 
leadership that you have given to this Committee. You have led 
the Committee with grace and good humor, and you have really 
given Chairman Smith a strong base on which to build the 
Science, Technology, and Space leadership for the future, and I 
thank you for all that you have contributed here and to the 
Nation during your career.
    If you believe, as I do, that humankind's destiny lies in 
the stars, and if you believe, as I do, that NASA should be an 
instrument in the fulfillment of that destiny, then the work of 
preparing NASA for the daunting challenges of strategy, budget 
and relevance in the 21st century is truly the work of shaping 
the future.
    The recently released report by the National Research 
Council does a comprehensive job of detailing the challenges 
that today's NASA faces: lack of agreed-upon direction, lack of 
adequate resources to do all that is asked of the agency, aging 
infrastructure, the emergence of other space-capable nations, 
the collapse of some international partnerships, the rapid pace 
of new technology development, and the increasing irrelevance 
of the aeronautical research program. Much of this landscape 
cannot be laid wholly at NASA's doorstep but its culture based 
upon successes of 50 years ago contributes to these problems.
    NRC provided four options for addressing an uncertain 
future. I choose option 2, and to quote again what Ron just 
told you: ``Engage in and commit for the long term to more 
cost-sharing partnerships with other U.S. government agencies, 
private sector industries and international partners.'' Within 
that option, I will emphasize the public-private partnerships 
because I believe them to be the best way to obtain the 
resources so vitally needed to make NASA's missions achievable. 
I say that mindful of the fact that one of the most important 
cost-saving measures that could be implemented in our space 
program would be to use the totality of U.S. assets for U.S. 
purposes. It makes no sense for NASA to spend billions on 
development of technology which is already available or under 
development by other sectors of the government or private 
industry. Some available technology may have to be modified to 
meet specific NASA objectives, but the bulk of the costs can be 
shared.
    NASA's basic role must be to do projects that push the 
envelope of what we know. High risk will lead to new 
technologies. That combination of risk and reward will underpin 
the next generation of space knowledge and products.
    Space and technology leadership requires a much broader 
view of the space community than has been traditional. If NASA 
is to have the resources it needs to maintain a preeminent 
world role, it must expand its funding base by reaching beyond 
a narrow aerospace focus and beyond the authorization and 
appropriation process on Capitol Hill. I say that latter point 
with all due respect, but the reality is that no federal budget 
in the foreseeable future is going to provide NASA with the 
money it needs to do everything we want it to do. NASA must see 
entrepreneurship and enablement as key components of its 
science, technology and exploration programs. NASA can extend 
its reach and find new financial resources by opening its doors 
wide to collaborative programs that allow any and all American 
space entrepreneurs willing to pay for it access to NASA 
expertise.
    There are some positive signs that NASA sees merit in this 
approach. The Commercial Cargo and Crew programs are 
encouraging. The use of NASA infrastructure by private sector 
participant is welcome. But Congress needs to expand the 
authority to move even more aggressively in this new direction. 
Too often, the steps taken thus far have been grudging because 
they really do represent a significant cultural shift. But that 
shift has been endorsed by several recent commissions that 
looked at NASA's future and became concerned. The commission I 
chaired in 2002, one chaired by Aldridge in 2004, and one that 
Norm Augustine chaired in 2009 all reached the conclusion that 
commercial activity in the form of public-private partnerships 
is a key to space leadership. The Aldridge Commission in 
particular called for broadening the space-related community 
and restructuring NASA to interact with that community. In 
turn, it was believed that NASA could benefit directly from the 
expanded community as it attracted outside investment in its 
activities and used its people and facilities to enable 
progress on many space fronts.
    A larger network of people and industries with a direct tie 
to NASA has to be a part of its strategic plan. It begins with 
buying available services from nontraditional sources. It 
evolves to a NASA prepared to see multiple nontraditional 
opportunities for new funding for its programs and activities. 
We already know there is interest. New companies have been 
created to provide services to NASA and to pursue business 
beyond NASA. Those companies should not be seen as rivals or 
detriments to NASA. They are instead the outgrowth of past NASA 
successes prepared to learn from what NASA has achieved and 
poised to grow the U.S. presence in the world space enterprise.
    Moreover, thinking in nontraditional entrepreneurial ways 
potentially can access tens of millions, perhaps hundreds of 
millions of dollars of private investment in NASA activities. 
If NASA programs and centers were restructured to take 
advantage of a flow of private capital, there is no end to 
potential collaborations. For example, sports teams in the 
country reap hundreds of millions of dollars in sponsorships 
without impact on their basic mission. Would anything in 
science, aeronautics or exploration missions be harmed if the 
names were attached to particular projects and they were 
sponsored? I can't imagine why. These sponsorship dollars could 
be structured to remain outside the appropriations process, 
increasing the amounts of money available to NASA and at the 
same time avoiding to some extent the vagaries of the annual 
appropriations cycle, and what kind of money is conceivably 
available? To pick a high-tech example, Formula One racing, the 
sponsorships there pay for operations costing $200 million to 
$300 million a year. That is enough for a whole space flight. 
NASA as an entrepreneur and NASA as a space enabler for growing 
space enterprise is how we address the resource problems and 
assure NASA a future that is wholly relevant to our Nation's 
economy.
    Congress will have to be willing to make some adjustments 
necessary to access that kind of future, but when the Go Daddy 
rover is traversing Martian terrain, we will be more solidly on 
our way to fulfilling our destiny in the stars. Moreover, we 
will have assured that destiny by leveraging our greatest 
economic asset, the inventiveness of a free market. Thank you 
very much.
    [The prepared statement of Mr. Walker follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Hall. And that is just the way it is. Thank you, 
Mr. Walker. And I thank you too, General.
    I now recognize the Hon. Marion Blakey to give your 
testimony for five minutes, more or less.

          STATEMENT OF THE HONORABLE MARION C. BLAKEY,

       PRESIDENT & CEO, AEROSPACE INDUSTRIES ASSOCIATION

    Ms. Blakey. Thank you, Chairman Hall, Ranking Member 
Johnson, and Members of this Committee. Thank you for the 
opportunity to be here again. I am Marion Blakey, President and 
Chief Executive Officer of the Aerospace Industries 
Association, the Nation's premier trade association for 
aerospace and defense manufacturers.
    AIA believes that NASA continues to be a leading-edge 
investment in our Nation's future. NASA missions and programs 
save lives. They grow the economy and they inspire the world. I 
must tell you, AIA has a new report called ``Space in our 
World'' and I will make certain all Members of the Committee 
have a copy, because we are very proud of the fact that we are 
documenting space systems and how they are woven into the 
everyday lives of Americans. NASA programs are hallmarks of the 
character of our Nation and our leadership, and as Americans, 
we are always looking forward to the next great frontier.
    We need to think carefully therefore about changing from 
current programs. It not only takes a consensus to do so, it 
takes resources and capabilities, some that we are already 
building today. Remember that had we not committed to the F-1 
rocket engine program in the 1950s, well before President 
Kennedy's Apollo announcement, we would never have gotten to 
the moon by 1969. This engine enabled a wide variety of human 
spaceflight missions, and SLS and Orion will certainly help us 
take the next steps in space that I think all of us here at 
this table want.
    So how do we keep NASA moving in the right direction? 
Clearly, NASA needs stable, long-term investment and steady 
policy goals, and more funding would be better. But we are 
concerned that constant churn in NASA's programs will lead to 
less progress. Stability is essential to space mission success 
and the health of the United States space industrial base. Any 
examination of NASA's strategic direction must consider the 
impact to this base, which is also essential to national 
security space capabilities as well.
    So let me take this opportunity, Mr. Chairman, to recognize 
you as the longest-serving Member of the House Science 
Committee. By giving NASA solid guidance with the 2010 
Authorization Act, you have demonstrated the leadership 
essential to assure future industry investments and recruit new 
aerospace talent.
    AIA agrees with NASA's three priority goals, which enabled 
critical space capabilities. First, we must fully utilize the 
International Space Station, which is a unique national lab. 
Here, the Commercial Crew and Cargo program provides the 
quickest way for our Nation to access the ISS. I thought it was 
terrific to see the success of the first commercial cargo 
resupply mission just this fall. NASA's commercial initiatives 
promise to bring down costs and they will free resources for 
other programs.
    Second, NASA's capabilities-based architecture is a 
realistic approach that is within the fiscal limits that we can 
then build space systems needed to explore new destinations. To 
date, significant progress has been made on this program 
including the delivery of the first Orion capsule to Florida 
for launch. NASA is also engaging the ISS international 
partners in innovative ways that expand our ability to 
completely support exploration together.
    Third, we must maintain global leadership in space science. 
Let us get the Webb telescope into orbit and operating, follow 
up on our Mars exploration success and replenish our 
indispensable Earth observation system capabilities. But I must 
tell you, the spectrum of sequestration concerns me greatly. 
Not only would it lead to program delays that would prove more 
costly in the long term but it would also have the immediate 
impact of putting more than 20,000 NASA contractor jobs at 
risk. That is the conclusion, and this is very new, by George 
Mason University economist Steven Fuller in an AIA-commissioned 
study that we are releasing today, and again I will make 
certain that all Members of this Committee have this brand-new 
study because the report highlights the impact of NASA 
procurement reductions in 11 key states. For example, Mr. 
Chairman, Texas would lose nearly 6,000 NASA-related highly 
skilled jobs as a result of sequestration. That is a $320 
million impact to the State of Texas.
    In conclusion, by focusing investments in support of the 
2010 Act, the Congress can ensure the health of our space 
industrial base and ensure our space program will remain second 
to none.
    I thank you for the opportunity to testify on behalf of the 
U.S. space industry and look forward to your questions. Thank 
you.
    [The prepared statement of Ms. Blakey follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Hall. I want to thank you for good testimony and 
for your accolades. I am not the longest-serving, I am just the 
oldest, and if John Dingell would cooperate with me, I will be 
the oldest one of these days here, and I will yield you another 
hour for your kind words if you like. Good testimony, and we 
thank you.
    Now we have Dr. Zurbuchen for your five minutes. Doctor, I 
recognize you, sir.

            STATEMENT OF DR. THOMAS ZURBUCHEN PH.D,

                  PROFESSOR FOR SPACE SCIENCE

                   AND AEROSPACE ENGINEERING,

          ASSOCIATE DEAN FOR ENTREPRENEURIAL PROGRAMS,

                     UNIVERSITY OF MICHIGAN

    Dr. Zurbuchen. Mr. Chairman and Members of the Committee, 
thanks for the opportunity to testify today. My name is Thomas 
Zurbuchen, a Swiss name from the mountains in Switzerland, and 
I am a Professor of Space Science and Aerospace Engineering at 
the University of Michigan. I run a research group with six 
space instruments in space right now and we are operating those 
and developing breakthrough science that is published in 
premier journals around the world. I am also the Associate Dean 
for Entrepreneurial Programs and concerned about spreading of 
innovation and entrepreneurship in our educational mission at 
this university and universities around the country.
    This is a period of limited resources, and we need to focus 
to position ourselves for better times. The way to do this is 
to ensure that a talented workforce will be available and 
disruptive innovations and technology breakthroughs are 
pursued. We need to do this through low-cost and modest-sized 
missions. The talented workforce and the innovations will be 
developed primarily by universities and industry, particularly 
small businesses and not primarily NASA centers. Hence, we need 
to pursue a strategy in which universities and industry as well 
as NASA centers are fully engaged.
    Today I want to focus on two key aspects of this strategy: 
the focus on people and the focus on disruption, innovative 
disruption, and I want to briefly talk about the balance, the 
program balance that is responsive to both of them. The number 
one priority of the space program and especially its science 
program should be talented people. Every mission in space, 
great or small, is carried out by people, not paperwork. We 
need people and their know-how. We have to ensure that NASA's 
space missions have access to the very best talent. How do we 
do that? First, we must recognize that top talent does not just 
hang out and wait for better times. Builders want to build. 
Innovators will innovate. And NASA leadership must be focused 
not just of the glory of days past but the aspirations and 
dreams of the innovators of the future. Second, some of this 
talent will be at NASA centers but most of the talent will be 
in academia and industry, particularly in small companies. 
Therefore, encouraging competition in emerging space industries 
will keep top talent focused on efforts that ultimately will 
aid this Nation in achieving its most ambitious goals through 
both technical innovation and reduced cost.
    The next priority in addition to people is innovative 
disruption. Disruption is good. Disruptive programs overturn 
old paradigms, create new markets and engender new value 
systems. These programs focus on smaller spacecraft, rapid 
turnaround missions, and I am convinced that science programs 
with these kinds of priorities will look different than the 
ones that we are building today. Consider, for example, the RAX 
program at the University of Michigan, which built and launched 
two CubeSats within two years for less than a million dollars. 
These NSF-funded tiny satellites make new measurements probing 
the origins of space weather, especially in high latitudes, the 
auroral regions, and the first one failed a few weeks into 
orbit. It is tough to do this, and the second one has now made 
measurements for over a year--research that is published in our 
premier journals. Also, this mission has provided hands-on 
experience for 50 of our best students. Many of these leaders 
work at SpaceX and some of the new space companies in fact 
being leaders of certain domain expertise really shortly after 
graduating and some of them work at NASA JPL and other NASA 
centers. They got experience that most students in the United 
States did not. RAX is all about innovative disruption, 
training of the world's best talent and for our space program.
    So how do we build a program that is responsive to these 
kind of constraints, and I do believe that a program like this 
requires small and responsive missions and projects from 
suborbital to large, strategic missions. It is a big priority, 
particularly to invest in modest-sized and principal 
investigator-led missions such as Discovery or New Frontiers or 
Venture-class missions, depending on the respective community. 
These missions have provided the best value for the money 
invested. That is the type of program that research resulting 
in NASA's first Nobel Prize was conducted and it is the type of 
program that built the spacecraft currently orbiting planet 
Mercury, and one of my censors is on there
    Consider, for example, University of Michigan's CYGNSS 
mission that was recently selected that is focused to eliminate 
one of the biggest uncertainties and predictions of big storms 
such as hurricanes and some of the storms that bring tremendous 
amounts of rain here sometimes, the uncertainty that relates to 
the strength of these storms. The science payload is 
approximately 100 times smaller in mass, in price and in power 
than conventional satellite measuring instruments which enables 
an entire constellation of these sensors to be flown at lower 
cost. So the use of this constellation reduces the revisit time 
and therefore the time resolution of the most pivotal 
measurements of these wins from days to hours, which is needed 
to observe the inner core processes of these storms. So these 
short-term priorities, however, must be balanced and aligned 
with big bets and big thinking worthy of NASA. NASA science 
should stretch our imagination, stimulate our thinking and 
demonstrate leadership worldwide. We must remember that the 
work that we do is not purely scientific, technological or 
economic or military based. The prime discoveries that further 
out understanding of the cosmos have fueled and inspired the 
human imagination across all cultures and all times and I 
believe will do so in the future.
    Thank you so much.
    [The prepared statement of Mr. Zurbuchen follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Hall. Thank you, Dr. Zurbuchen. Good advice, and 
well presented. Thank you, sir.
    At this time I recognize Dr. Pace for your five minutes.

          STATEMENT OF DR. SCOTT PACE, PH.D, DIRECTOR,

    SPACE POLICY INSTITUTE, THE GEORGE WASHINGTON UNIVERSITY

    Dr. Pace. Thank you, Mr. Chairman and Ranking Member for 
this opportunity to discuss the important topic of NASA's 
strategic direction.
    It has been noted that the NASA Strategic Plan does not 
drive NASA budget requests or the allocation of relative 
emphasis to activities within those requests--exploration, 
science aeronautics. As such, it is not surprising that there 
are numerous disconnects between the stated policies, approved 
programs and their actual funding. The technical and budgetary 
risks facing the agency are the most visible symptoms of deeper 
policy and management disconnects between the White House and 
Congress. Such disconnects are not inevitable and can be 
resolved by the White House and Congress as well as NASA 
working together, and as often stated, budgets are policy and 
NASA budgets are really a more accurate reflection of de facto 
national policy than the NASA Strategic Plan is.
    The NASA budget is a political choice. It is a reflection 
of what we value as a society. The Obama Administration's 
stimulus program was greater than NASA's budget cumulatively 
from 1958 to 2008 in constant-dollar terms. The United States 
sent humans to the moon, built and operated a space shuttle 
fleet for 30 years, explored the solar system and contributed 
its share of the International Space Station for less than the 
cost of the American Recovery and Reinvestment Act. The point 
of such a comparison is not that space is inexpensive but 
rather that in today's environment, sustaining discretionary 
expenditure for civil space exploration will be challenging 
unless there is a clear rationale linking such efforts to 
broader national interests that could be supported in a 
bipartisan manner over many years.
    What I hope to convey in my written testimony was that 
while NASA faces serious challenges, particularly in human 
space exploration, a way forward does exist to put the agency 
on a more stable and sustainable foundation that will advance 
U.S. national interests. The seemingly separate threads of 
human, robotic, civil, commercial and national security space 
activities are in fact deeply intertwined with each other, both 
politically and technically. The United States can best advance 
its national interests to a more integrated, strategic approach 
to its national security and civil space interests. 
International civil space cooperation, space commerce and 
international space security discussions could be used to 
reinforce each other in ways that would advance U.S. interests 
in the sustainability and security of all space activities.
    It is well recognized that many of today's most important 
geopolitical challenges and opportunities lie in Asia. Asian 
space agencies have shown a common interest in lunar missions 
as a logical next step beyond low-Earth orbit. Such missions 
are seen as ambitious but achievable and thus more practical 
than missions to Mars and more distant locations. They offer an 
opportunity for emerging and established space-faring countries 
to advance their capabilities without taking on the political 
risks of a competitive race with each other. A multinational 
program to explore the moon as a first step would be a symbolic 
and practical means of creating a broader international 
framework for space cooperation. At the same time, the geo 
political benefits of improving intra-Asian relations and U.S. 
engagement could support more ambitious space explorations than 
science alone might justify.
    Europeans are also interested in being part of a return to 
the moon, and as recently as June of this year, Russia proposed 
a lunar program with the United States and publicly supported 
this position at international conferences. There are many 
geopolitical, scientific exploration, commercial and 
educational objectives that could be achieved at the moon, and 
in contrast, the case for a human mission to an asteroid is 
unpersuasive and unsupported by technical or international 
realities. We should be visionary but focused on practical 
actions.
    The exploration and development of space is a reflection of 
the values we hold as a Nation. It is those values that are 
probably the most important to the long term for defining what 
NASA is and what space exploration is truly about. It is not 
just our DNA and our robots that go out there; it is our 
values. We are a Nation not defined by blood, tribe or religion 
but by conscious choice. Our choices are defined by adherence 
to the Constitution and the values of a tolerant culture, a 
democratic society and a market-driven economy.
    In shaping the international environment for space 
activities, the United States should seek to build a more 
secure, stable and prosperous world in which our values are 
taken beyond the Earth. In doing so, we should also exercise 
some humility in face of the unknown. Did Thomas Jefferson know 
the ultimate economic return or impact from the investment in 
the Louisiana Purchase and the Lewis and Clark expedition? Did 
Teddy Roosevelt in sending the Great White Fleet and building 
the Panama Canal? Did Kennedy with Apollo? In their time, these 
projects were controversial and criticized in Congress but who 
today would say that they should not have been done? Through 
the long lens of history, we see that these efforts define us 
as a Nation, a Nation that pioneers the next frontier.
    Let me conclude by observing that we are all in this 
together: the White House, Congress, U.S. government agencies, 
our international partners, Space Station, science community, 
universities, research centers and the many U.S. companies that 
create and operate our Nation's capability. Thus, I really 
commend and thank this Committee for holding this hearing 
today. Thank you for your attention, and I would be happy to 
answer any questions you might have.
    [The prepared statement of Mr. Pace follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Hall. And we thank you, Dr. Pace. I thank all of 
you for your testimony, and I remind Members that Committee 
rules limit questioning to five minutes for each of us. I will 
open the round of questions and recognize myself for five 
minutes.
    As I sit here, I don't ever like to say it is my last day. 
This is the last day for this week, at least. I don't like 
anything last. I don't even like for them to call an airport a 
terminal. That doesn't sound good to me at my age. I was just 
thinking of the really wonderful testimony all of you all have 
given and the time that it took you to gather to have that and 
then to gather up on it and then deliver it to us. It is really 
great of you and generous of you.
    I go back and I glean from each of you that there is need 
for more funds. The Norm Augustine committee recommended, if 
you remember, Bob, $3 billion additional for NASA per year. 
That wouldn't have even brought us up to one percent of the 
overall budget. That is a shame. Three Presidents turned their 
backs on us on that when we asked them for that additional 
money. Things could be different today, I think, had we been 
able to edge that into the budget for NASA. We needed it.
    Bob, you suggested several modifications, and Administrator 
Blakey, thank you. I have a question or so.
    General, let me ask you, General Sega, what reaction, if 
any, has your Committee received from the Administration with 
regard to the recommendations you lay out? And I liked your 
recommendations. Specifically, you cite a need for a new 
national consensus for NASA's future. Does the Administration 
agree with such a consensus is needed, or can you answer that?
    General Sega. Mr. Chairman, the report was briefed last 
week to a NASA administrator and staff, and I believe it was 
well received, and we have not briefed any other elements of 
the Administration besides NASA.
    Chairman Hall. Okay. Let me ask Dr. Pace----
    General Sega. Excuse me. I stand corrected there. We also 
have briefed Dr. Holdren at OSTP.
    Chairman Hall. Okay. What was their reaction? They kind of 
speak for the President, I think, sometimes.
    General Sega. Correct, and they were mostly in a listening 
mode, and again, they hadn't gone through it in detail, but we 
did present our recommendations and so we would await their 
reaction.
    Chairman Hall. Okay. Dr. Pace, your testimony points out 
how potential international partners have been confused by lack 
of clear space goals and priorities and especially by the 
cancellation of plans to return to the moon without a viable 
alternative. Why don't you elaborate on why the moon is a more 
appropriate step for our international partners than an 
asteroid or Mars? To me, the Space Station is number one. It is 
so important. If we can't do that, we can't do anything, and we 
would absolutely lose our international partners. That is the 
next thing that everybody points out. But how to keep them? We 
need more money. I think it is too late to ask for that 
additional billion or that that would help us, the $3 billion 
that was suggested by the man that has led every study I guess 
that has ever been made for this Committee. Does the 
Administration--you will know whether or not the consensus is 
needed. Does NASA believe that a consensus is needed?
    Dr. Pace. Sir, would you like me to answer the 
international question or the NASA question?
    Chairman Hall. The NASA question.
    Dr. Pace. Well, I think that not being with NASA, of 
course, today, as I look at NASA from the outside, I think that 
they in fact do feel frustrated by the disconnects between the 
White House and Congress. They of course would like to have 
some clearer direction and support. But I think that if you ask 
them as representatives of the Administration, I think they 
would say well, we have a direction, we have a policy, and we 
are trying to execute that policy as best we know how. The 
problem is I think, particularly in civil space exploration, is 
disconnected from technical and political realities. I 
completely agree with you that the Space Station is the most 
vital immediate thing we have to be focused on. But then we 
have to be looking, what comes after the Space Station, and 
this is where I think our international partners feel a bit 
left out because Mars and asteroids are extremely challenging. 
They are extremely challenging for us. And as a result, when 
they look at themselves and they look at their own agencies, 
they don't see a way for meaningful international cooperation 
with us on those programs, certainly in the manned side of 
things. And therefore they are left really without a way 
forward to work with us.
    I think that hurts us because the consensus I think in the 
U.S. community is that international cooperation is essential 
to any exploration beyond low-Earth orbit. Nobody thinks we are 
going to repeat the Apollo program going there by ourselves, 
and so it makes sense to ask what could our international 
partners do, what are they capable of doing, and we really 
haven't provided a hook for our partners in the current policy. 
That leads to the disconnect with larger geopolitical interests 
which then leads to the sense of drift that I think NASA feels.
    Chairman Hall. We know we can go to the moon. How do you 
feel about putting major emphasis on the Space Station and not 
forgetting that we want to go to Mars or that we intend to go 
to Mars and keep an ear open to that but not to be asking for 
vast, expensive and great amounts of money that it is going to 
take to do that until we perfect reaching our own Space Station 
and claiming back our Space Station that we are almost turning 
our back on by having to beg the Russians for a trip up there 
and back?
    Dr. Pace. No, I think that if one does not support the 
Space Station, anything else is kind of meaningless. In the 
aftermath of the Columbia accident, we had very serious 
conversations with our international partners as to whether or 
not they wanted to stop and just simply call it a day, and they 
were very, very clear that we had to continue with the Space 
Station, they had made these commitments to it, it was not 
practical to talk about other international cooperation if in 
fact we failed at the station. So I think the number one issue 
and I think also as part of my written testimony, utilization 
of the Space Station is the near-term issue. Ensuring access to 
the station with high reliability is the top issue for ensuring 
utilization.
    One of the concerns--this is maybe a whole separate 
discussion--is on the sustainability of the station with the 
rather fragile logistics support that we have right now. The 
new commercial cargo capabilities that are coming online are 
extremely critical, extremely necessary. If there is any 
faltering or delays in that, we are going to be looking at the 
potential for having to maybe reduce the manning on the Space 
Station, and if that happens, then we are going to be looking 
at our utilization going down.
    Chairman Hall. I thank you, sir.
    My time has expired. At this time I recognize Mrs. Edwards 
for her--Ms. Johnson for her five minutes.
    Ms. Johnson. Thank you very much, and let me thank each of 
the witnesses for extraordinary testimony.
    I am sitting here in sort of a state of frustration. I 
think that this Committee is expected to be a visionary 
committee and also I feel very strongly that our future in 
research, development and innovation rests with what we 
recommend or what we do, and our opinion. We are not 
appropriators on this Committee but we are very mindful of the 
fact that we have very little money. But I still think that 
with the help of experts, we can at least lay out what we 
consider the vision for our country's research and innovation 
through space research, and then allow the Administration or 
the appropriators to determine what we can and cannot do. I 
think that currently there is so much frustration as to where 
NASA is concerned that they really don't know what is coming 
next.
    Just looking at what has happened so far in space 
exploration research, it is clear to me that where we are now 
came almost exclusively but certainly from space exploration 
research. I believe that to stop and decide we can't afford it 
is simply saying to our future, we won't be there. We won't be 
there for our young people, we won't be there for the 
inspiration, we are just going to take a backseat and watch the 
rest of the world. We won't need to educate our young people if 
we are not going to give some opportunity for participation.
    So I guess my question is, how would you help us come to a 
real recommendation that speaks to what we consider to be the 
needs in the future rather than just the money? We know it 
costs, but we have got to make some real serious decisions, and 
I don't think we have half-step it. We have got to decide that 
we are going to invest in our future and eliminate the need for 
food stamps or whether we are going to continue to pay for more 
and more and more food stamps. And so I am very, very concerned 
because I know that we are very sensitive to the cost on this 
Committee, and we should be, but we really are not the 
appropriators; we are the visionaries. We are the people who 
are supposed to be looking to see what our Nation needs to keep 
pace and to continue to be leaders. So I need to know if you 
would give me some of your opinions on where you really think 
we ought to be if we were brave enough to say this is what we 
need, take it or leave it, Mr. President. Anybody? Mr. Walker, 
why don't you start?
    Mr. Walker. Well, I agree absolutely with your premise, and 
I think that the role that the government has to play in NASA 
is to assure that its missions are future-oriented, and I think 
we have spent an awful lot of money in recent years on 
essentially operational issues and so on. What this Committee 
could do is give us a sense of direction. I mean, do we go back 
to Mars, do we do some of these kinds of things, but in order 
to do that, then you have to commit yourself to some high-risk 
technologies because in my view, it is extremely important that 
you, for instance, reduce the time that it takes to go to Mars 
if you are going to do it. The only way it is politically 
viable is if you can go there in weeks rather than years, and 
the fact is, we could develop technologies along those lines 
but it is going to take the Committee's decision in your 
authorization process to give NASA those kinds of instructions 
to move it forward. And what I was suggesting in my testimony 
is that there are ways to reach out for some of the other 
things that you are doing for money.
    Since I left Congress, I have been involved with an FFRDC. 
You will notice that in the Aldridge Commission report, they 
recommended at least some of the NASA centers move to that kind 
of model. Why? Well, because at that point you can have both a 
government funding stream going into the operation as well as 
outside money coming in to the operation to do other things, 
and that allows you then to have some streams of money that do 
not necessarily depend upon the appropriations process. I don't 
know if that is exactly the right model for NASA but it seems 
to me that this Committee working could come up with something 
along those lines. That allows you then to look forward as well 
as find the resources necessary, not wholly government 
resources, and that is what I am trying to suggest in the 
testimony.
    I think that is possible. I have worked with a number of 
these start-up companies that are looking to do really exciting 
things. They would love to have NASA as a partner, and you have 
got to figure out a way to find ways for NASA to be able to do 
that partnership on a very, very routine basis.
    Ms. Johnson. Thank you. I know my time has expired, but 
yours have not, so I will relent and let them answer.
    General Sega. If I could follow that comment, our study 
task stated that any recommendations made by the committee will 
be predicated on the assumption that NASA's outyear budget 
profile will be constrained due to continuing deficit 
reduction, so we looked at a budget-constrained environment. We 
do believe, and we concur with what you were saying in terms of 
the long-term view, and strategic goals and objectives are a 
starting point and that there is a consensus about those 
strategic goals and objectives. For example, as we had many 
witnesses and did our work, we found little evidence that an 
asteroid mission, for example, is widely accepted, whether 
inside of NASA, outside in industry or internationally, and so 
it is important that there is clarity in terms of the direction 
and NASA's strategic plan can in fact with clarity identify 
what the trades are in that portfolio going forward and there 
is a starting point upon which some choices can be made.
    Ms. Blakey. I think you will find industry also joining 
with others on the panel saying that absolutely partnerships, 
the ability to bring together public and private sector and 
international or conjoining resources is certainly an excellent 
step in the right direction, that if this Committee through the 
upcoming reauthorization process, because I would remind us all 
that it is not so far away again, that you all are going to 
have to tackle that would be excellent.
    I also would say that regardless of destination, because 
there are conflicting views about destinations--you even hear 
them on this panel--let us keep in mind that building the 
capabilities to get into deep space, the ability, both in terms 
of heavy launch as well as crew capsules and tackling some of 
the research that is daunting right now still. We don't have 
all the answers on deep space radiation, for example, and 
issues of bone density. So there is some critical research that 
has got to be continued, but remember, when they supported the 
F-1 rocket back in the 1950s, they didn't know where they were 
going to go but it made all the difference, so bear that in 
mind.
    Dr. Pace. Well, actually I was motioning to my colleague 
because I thought that he put his finger on it in terms of the 
people, that is, the combination of small satellites, 
suborbital missions, zero-G aircraft, things that provide 
really tangible hands-on experience is the most crucial thing 
to give people a sense of the future. Sometimes when it is said 
to me, ``we have been to the moon already,'' I usually have to 
respectfully say, well, my father's generation went to the 
moon; we have not gone to the moon. That generation is past. We 
need to build and rebuild the people with the expertise.
    One of the most exciting things about the commercial 
industries and the partnerships that Congressman Walker noted 
is that opportunity to provide for hands-on, real hardware and 
real flight experience, for which there is no substitute. And 
so I think the building of capabilities, whatever destinations 
we want to go, obviously I am a partisan of a particular 
approach, none of that is possible without hands-on expertise, 
and I thought my colleague really nailed that one.
    Chairman Hall. The gentlelady yields back her time. I think 
that was a very good question that you asked, and I am sorry 
that that question wasn't put to the President of the United 
States before he ran a line through Constellation or he hadn't 
have talked to Bob Walker, General Sega, some of you who know 
much about what is going on, Norm Augustine, for one, who 
always said what we needed the funds for it, and the funds we 
needed and were requested were turned down. So we go from that.
    At this time I recognize Mr. Sensenbrenner for five 
minutes.
    Mr. Sensenbrenner. Thank you, Mr. Chairman.
    NASA was created in the 1950s in reaction to the Soviet 
Union launching Sputnik I, which ignited a Space Race beginning 
with the Mercury program. NASA's focus on putting humans into 
space served as its most high-profile and arguably the most 
exciting facet of the agency. Mission-oriented manned space 
programs have been the prism through which we judge the agency, 
and mission orientation back 40 years ago excited a group of 
students to go into STEM education, which we now call it today, 
and got us a generation of scientists and engineers.
    The space shuttle, however, flew its last mission in 2011 
and there is now a gap in domestic spaceflight capabilities. 
Instead, we rely on the Russian space agency to ferry American 
astronauts to the space station. The Bush Administration began 
the Constellation program to serve as the shuttle's successor 
but President Obama canceled the program. Fortunately, Congress 
has continued to see the importance of a heavy-lift rocket 
system and mandated the Space Launch System and the Orion 
program in the 2010 NASA authorization bill.
    Dr. Pace, I appreciate your comment. The stimulus act 
appropriated more funds in one act than this country has spent 
on NASA since its creation in 1958, and budgets and spending 
are an example of priorities, and in terms of having to seize 
the continued United States' preeminence not just in manned 
space programs but in terms of science and inventions and 
everything else that goes along with it ended up being washed 
away in the flood of stimulus funds.
    Now, as this hearing has highlighted already, the 
President's approach to human spaceflight lacks a clear 
mission, and he is relying on the success of commercial space, 
which I agree is vital, but has dragged his feet on pushing 
human spaceflight at NASA. I strongly support a public-private 
partnership for our country's space policy. However, it is up 
to NASA to develop the heavy-lift rocket because the private 
sector doesn't have enough funds to do it by itself, and that 
heavy-lift rocket needs enough thrust to overcome the 
Administration's shortsightedness.
    Now, by canceling the Constellation program, NASA has lost 
its international partners who supported a mission to the Moon. 
President Obama has taken a ``been there, done that'' approach, 
but we haven't been there for 40 years, and the international 
partners that would have helped us have never been there. If we 
cannot lead the world in space, China and Russia will 
inevitably feel the void that we left behind, and that will 
have a trickle-down effect on the number of people that we 
train as scientists and engineers to keep America's preeminence 
not in space but in practically everything else.
    So Dr. Pace, would you please discuss the problems caused 
by the cancellation of the Constellation program, and what is 
needed from Congress in this current fiscal environment to 
ensure the success of the Space Launch System and Orion?
    Dr. Pace. Thank you, sir. That is a tall order. I think one 
of the crucial things that the Constellation program was 
supposed to do was to provide a smooth transition for the 
workforce and for the capabilities the Nation had off of the 
shuttle program to whatever came next.
    Mr. Sensenbrenner. And we have lost that now.
    Dr. Pace. And we have lost that, and the deep integration 
between low-Earth orbit and farther destinations that was hoped 
for I think is also gone. So I would first say that 2012 is not 
2008. We are in a different and new situation today, and we 
have to look at going forward.
    The primary--one of the primary problems, though, with the 
end of Constellation was again cutting ourselves off from our 
international partners who didn't see how they were going to 
participate, increasing risk to the International Space Station 
because while we certainly hope for and encourage and want to 
see the private sector take over that work, if there are 
delays, if there are problems, we don't really have a fallback 
option, so we are down to really a few critical paths for 
supporting the station. So the complementary nature between 
commercial programs and the Constellation program I thought was 
one of its strengths.
    The lack of a clear rationale for human exploration beyond 
the International Space Station is another serious problem. The 
Administration's approach of being capability driven, while it 
has a certain logic to it, also has a lot of vulnerabilities, 
and historically, I think that a more strictly geopolitical 
approach such as I have talked about a post-Cold War approach 
for leading international cooperation would in fact be a better 
approach for the United States. There are some others that one 
could take but simply talking about capabilities absent a 
strategic rationale that is integrated with other U.S. national 
interests I think is a very, very fraught path as we are seeing 
today.
    Mr. Sensenbrenner. Thank you. My time is expired.
    Chairman Hall. The Chair now recognizes the gentleman from 
Michigan, Mr. Clarke.
    Mr. Clarke. Thank you, Mr. Chair.
    Funding for NASA is very important for many reasons but 
especially investment in NASA creates jobs. If we want to 
increase funding to NASA, we have got to speed up our Nation's 
economic recovery, and I have a couple of bills that I believe 
provide a very cost-effective way to strengthen our economic 
competitiveness, and that would be to invest in the city that 
symbolizes both U.S. manufacturing and has the assets to help 
make our country's economic capability stronger, and that is 
the city of Detroit. The city of Detroit is currently in fiscal 
constraints. It is facing its own fiscal cliff. I will be soon 
introducing a bill that will allow the city to refinance its 
considerable debt at a lower interest rate, saving money and 
likely stabilizing that city's financial situation. 
Furthermore, I am proposing to eliminate the capital gains tax 
on income on investment made in that city as a way to spur 
investment.
    Saying that, in the city of Detroit, we have an 
extraordinarily high number of people who have lost hope 
because they are not working, yet throughout the metropolitan 
Detroit region, we have many employers who have thousands of 
jobs that are going unfilled because they can't find people 
skilled and qualified to be hired into those jobs. We have a 
skills gap in metropolitan Detroit as well as in this country.
    Dr. Zurbuchen, from the University of Michigan, I know that 
you understand these economic challenges that we are facing in 
southeastern Michigan. How do you believe that investing in 
NASA innovation could help us close that skills gap?
    Dr. Zurbuchen. Thanks so much for this question, 
Congressman.
    I am the first university graduate in my family. The only 
reason I studied science, which is what I did, and the only 
reason I came to this country is because of the investment this 
Committee or committees ahead of it have made decades ago and 
because of the inspiration that came from the Space Program. I 
believe that that power of inspiration and investments that 
comes from this has a tremendous effect on the youth, the young 
high school student who is making decisions for her career and 
the future she has in front of her seeing that it is possible 
to make these dreams a reality.
    So I do believe the inspiration aspect of NASA is a really 
important part and remains a very powerful force that this 
Committee should consider. Once we get them through the high 
schools and into our universities, I believe the kind of 
diverse portfolio that I mentioned, the hands-on experience 
explains to our students that technology and progress is not so 
much just about talking about ideas; it is about making these 
ideas happen.
    And you should be interested in knowing that, for example, 
at the University of Michigan with--this last year, something 
like 5,000 engaged students in activities, aerospace is the 
third-most represented theme following only biomedical and 
computer science, the ones you would have guessed perhaps 
initially. Aerospace is hugely represented because of the 
reasons that Congressman Walker and others have mentioned the 
tremendous power of the ability of actually putting these 
companies out there, trying to have new approaches of landing 
that rover on Mars. Some of my students were engaged in that. 
So I believe the hands-on experience that comes from the 
programs from NASA are a second aspect on a very important 
solution that you were mentioning.
    The shops are coming. We have startups in aerospace. Some 
of these really surprising kind of changes from technology that 
was developed under NASA, for example, technology that they are 
now investigating under city sewer systems using robotics 
technology that was developed in NASA. General Motors, a 
company that you are very much aware of having tremendous 
autonomy, lessons learned in collaboration with NASA through 
these public-private partnerships that led to the robot on the 
space station. So I believe that there is multipronged aspects 
that relates directly to the bottom--not just to the bottom 
line, to the top line to what our economy does and how--what 
the shops are that are being created both in Michigan but they 
are all over the country.
    Mr. Clarke. Thank you, Doctor.
    Mr. Chair, do I have time for another question?
    Chairman Hall. I beg your pardon?
    Mr. Clarke. I yield back my time.
    Chairman Hall. The gentleman yields back his time.
    The Chair now recognizes Chairman Smith for five minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    General Sega, let me address my first question to you. Your 
report showed that there is not much support in the scientific 
and space community for a mission to a near-Earth asteroid in 
2025. Is such a mission absolutely necessary to help us get to 
Mars or are there alternatives? And are there alternative 
missions as well to replace that mission to the asteroid?
    General Sega. As we look at the human mission to an 
asteroid that is in 2010 National Space Policy of the United 
States, in addition to not being widely accepted, there were 
some shortcomings noted by some of the people that appeared 
before the Committee. A note is that as we look back in time, 
there have been several Presidents that have talked about Mars. 
The rhetoric toward that as a destination was noted by the 
Committee. We also recognize that there are different paths 
that one could go if that was in fact the chosen destination 
for a human mission and that it would maybe look at integrating 
some of the other aspects of NASA's work. For example, if that 
was the strategic goal, then you would look at the robotic 
missions that would support going there.
    Mr. Smith. General Sega, do you think we should reconsider 
that mission to the near-Earth asteroid?
    General Sega. The Committee didn't address that directly 
but there were many questions that concerned that as the path 
forward.
    Mr. Smith. Okay.
    General Sega. Other work in terms of technology, 
aeronautics, getting to the atmosphere of Mars, out of our 
atmosphere in science could be focused on the strategic goals 
and objectives.
    Mr. Smith. Okay. Thank you for that.
    Dr. Pace, what do you think the American people would like 
for us to do in space? Obviously, the Hubble is a popular 
curiosity that generated a great amount of interest. More 
specifically, how do you determine that coincidence between 
popular support and missions that are scientifically justified 
and missions that can be just abide by budget constraints as 
well?
    Dr. Pace. Sure. One of the patterns you see in public 
opinion is U.S. public opinion has been actually remarkably 
stable for space activity. It was never as large as people 
thought it was during Apollo and it has never been low as 
people thought about afterwards.
    So the American public have sense, I think, that we are an 
exploring nation, we are a pioneering nation, and they expect 
or assume that our leadership is in fact doing that and working 
on it and they trust that that is happening. So when things 
like the shuttle program ended without really a clear path 
after that, there was somewhat a sense of shock or concern, not 
because they agreed or preferred one path or another but 
because they sensed, well, wait a minute. Isn't someone working 
on this? Isn't there a path forward.
    The--getting to specific missions, I think what you see 
over and over again is people have an interest in life. They 
have an interest in people, the sense of direct--so when there 
is the possibility of organic life on Mars, you see lots of 
interest. Much to the disappointment sometimes of the 
geologists who think they are doing important work, too.
    Mr. Smith. Right.
    Dr. Pace. But life science and that sense of personal 
connection, space tourism which is talked about, that sense of 
personal participation and connection is what I think the 
American people are----
    Mr. Smith. Would you put in that category Earthlike planets 
as well?
    Dr. Pace. Absolutely. Absolutely. The growth of a number of 
Earthlike planets----
    Mr. Smith. Okay.
    Dr. Pace. --to the Kepler mission has been very, very 
exciting. I think that with the James Webb Space Telescope to 
see deeper into the galaxy and things we have never seen before 
will inspire that sense of wonder that the American people 
assume that their country is going to be a leader in doing.
    Mr. Smith. Okay. I agree with that. Thank you, Dr. Pace.
    And Congressman Walker, final question for you. How do we 
determine the balance between robotic and human missions? There 
are advantages and disadvantages to both, but is there any way 
to try to achieve a balance?
    Mr. Walker. Well, I think clearly there needs to be an 
understanding of what humans can do best and what robots can do 
best. The robots give us tremendous amounts of information, but 
in general, they find what we sent them there to find. It is 
based upon our belief of what they might be capable of finding. 
Humans have the advantage of going and finding things that we 
never expected to find and never expected to see. Someone said 
the other day that the two small rovers that were on Mars for 
many months did, in the whole time that they were there or the 
whole time that they have been there, about the same amount of 
work one human could do in a day-and-a-half because is it in 
fact--it is the human ability to process information in 
remarkable ways that is needed.
    And so I think you do strike a balance. The precursor 
missions are always going to be robotic probably. There are 
tremendous science missions that you can do with robots. But in 
the end, you want to put humans into a place where humans can 
find only those things that humans are capable of finding.
    Mr. Smith. Thank you, Mr. Walker.
    Thank you, Mr. Chairman.
    Chairman Hall. I am aware of Mr. Walker's problem space and 
time-wise. We excuse you at this time.
    Mr. Walker. I am fine, Mr. Chair.
    Chairman Hall. You are okay?
    Mr. Walker. I have had my office tell my appointment that I 
will reschedule with them and so on, and so I am fine for the 
moment.
    Chairman Hall. Okay. Thank you.
    The Chair now recognizes the gentleman from Michigan, Mr. 
Curson, for five minutes.
    Mr. Curson. Thank you, Mr. Chairman. And thanks to all of 
you that testified with this excellent testimony.
    I am from an industry that has benefitted much from NASA 
and the technologies and everything that they have spawned from 
their research and the brilliance that has come out of there--I 
come from the auto industry and everything from metals to paint 
to weight, and I truly hope that NASA gets a long-term presence 
that they are looking for because it benefits this entire 
country. But also the stimulus that we have talked about that 
has been kicked around here a little bit saved that same 
industry that I came out of, and had it not been for that 
stimulus, we have might have been in a depression and not be 
able to talk about any funding.
    So with that out, I would like to direct a question to 
General Sega. You testified that NASA needs personnel 
flexibility, including the ability to conduct reductions in 
force and hire contractors rather than civil servants in select 
instances. I would like to know if this is because there isn't 
a long-term commitment to the program and you need to be 
flexible bringing people in or out, or do you believe even if 
there is a long-term commitment if that would be your strategy 
on personnel? And what provisions can NASA make for the 
retraining of those highly educated NASA scientists and 
technicians if you end up with a glut of those people, which 
there is going to be right now from what I understand? And is 
the commercial market large enough to absorb these scientists 
and these highly skilled people that were trained with tax 
dollars and they are going to carry knowledge that nobody else 
possesses that could be valuable to our country? Can the market 
absorb those?
    General Sega. Congressman, one of our tasks was to examine 
NASA's organizational structure and identify changes that can 
improve the efficiency and effectiveness of the mission 
activity, so that is how we address that.
    As you arrive at new strategic objectives and goals and 
then NASA creates a strategic plan to accomplish those, we 
recommend the flexibility, not necessarily, how it would turn 
out in terms of the ability to look at personnel in 
infrastructure aligned with the strategic goals and objectives 
in an implementation plan.
    So we did note that the jet propulsion lab is an FFRDC-type 
structure and it is contract folks there that are engaged in 
many aspects of research development and operations for their 
satellites. So in different centers have a different mix in 
terms of contractors and civil servants. There were about four 
of them that were about 50/50. There is about three of them 
that were quite high in terms of contractors to NASA civil 
servants, one that was higher in terms of civil servants than 
contractors, but there is more of that flexibility of doing 
what that center would be expected to accomplish in a more 
integrated way. And so it was the flexibility rather than a 
specific solution that we are recommending.
    Mr. Curson. Hnot to be aow do we ensure that NASA's 
research talent pool and facilities are not acquired by foreign 
interests that may be harmful to our national interests? I 
guess the General, I direct that toward you again.
    General Sega. That was not addressed in our study in terms 
of the United States versus foreign ownership of companies.
    Mr. Curson. And I believe you testified in your written 
statement that NASA's infrastructure flexibility--the ability 
to dispose of property it no longer needs. Would this be 
included and what could be purchased by foreign countries?
    General Sega. I don't really recall that we have specified 
or even considered in our deliberations the nature of the 
entity that would be a potential buyer of the facility. I do 
want to give you an example of a visit that I made to Plum 
Brook--it is in Ohio--where they have a large chamber and they 
test fairings separations. And they--a great facility. Some of 
NASA's missions need that, but it is a facility that also has 
the capacity for other work. And so it was ESA that looked at 
doing some work in that facility. They were also discussing 
with JAXA and SpaceX to do work in that facility. And so it 
would be--some aspects may be appropriate for a sale, but 
others may be just greater utilization of the facility in more 
creative ways.
    Mr. Curson. Thank you.
    If I may, one question to Congressman Walker. You talked 
about the possibility of for-profit companies joining in with 
NASA on particular research. We all know there are great minds 
out there right now thinking about farming in space and mining 
in space, which would be great projects to work together. Are 
there really companies out there that could afford the funding 
to do that research to join in with NASA to help NASA become a 
viable program for the long-term?
    Mr. Walker. Absolutely. I mean you have companies right now 
that are creating spacecraft that you do have working 
relationships with NASA but we would love to have closer 
relationships and look toward the future. We announced a 
company just last week that is looking to go to the moon. 
Certainly, NASA's expertise in that area would be invaluable. 
And these are companies who are perfectly prepared to pay NASA 
for utilization of their facilities and utilization of their 
talent. And so there are lots of opportunities out there that 
could be expanded even more into the future.
    You mentioned the automobile industry. The automobile 
industry is in the process of developing autonomous vehicles. 
Nobody has done more elaborate work on autonomous vehicles than 
NASA has done. My guess is that there have been some 
partnerships in that, but those are partnerships that could be 
expanded.
    Mr. Curson. Yeah. Thank you, Congressman.
    And I yield any time I might have left.
    Chairman Hall. The gentleman yields back.
    The Chair recognizes the gentleman from Mississippi, Mr. 
Palazzo, for five minutes.
    Mr. Palazzo. Thank you, Chairman Hall.
    The hearing today is especially appropriate considering the 
upcoming NASA reauthorization of some of the recent bills we 
have passed, including the indemnification bill that so many on 
this Committee wanted to see and supported.
    As has already been expressed here by other Members and our 
witnesses, I am concerned with the vision for NASA going 
forward and the budget issues that are causing such grief in 
our short- and long-term programs and missions. What are our 
long-term goals for NASA? How will we form a strategy that 
takes into account all NASA initiatives from space and earth 
sciences, human space exploration, and aeronautics to STEM 
education? The NRC report attempted to answer these questions 
and discuss some of the paths NASA could take. None of them 
will be easy and our job will only become more difficult as 
budgets shrink.
    NASA, the Administration, and Congress must do a better job 
of informing the American people about the important work NASA 
does and the overwhelming benefits our society reaps as a 
result. Maintaining our space leadership in the world is 
extremely important and is worth investing in, but we must not 
forget that an investment in NASA is also an investment in 
research and development for future technologies. NASA has a 
proven record and thousands of examples in everyday 
technologies we simply could not live without in 2012.
    I would like to remind everyone the speech that President 
Kennedy gave at Rice University in 1962. He addressed the U.S. 
effort to put a man on the moon and used that famous line--and 
I am paraphrasing--but Kennedy said we did these things not 
because they are easy but because they are hard. The questions 
we must answer and the choices that must be made are anything 
but easy. But like Kennedy, we should not shrink back from them 
simply because they are hard.
    NASA must step up to this challenge or it risks its legacy 
of success and leadership in space. That is not an outcome that 
anyone in this room wants to see happen. So I thank you all for 
sharing your comments with us today, and I believe I may have 
time for one question.
    So Ms. Blakey, given the end of the shuttle program and a 
lack of a clear strategic direction, how does the uncertainty 
threaten our industrial base and can you characterize the 
capabilities that are at risk and perhaps even give us some 
examples?
    Ms. Blakey. Well, certainly, the cancellation of 
Constellation was extremely disruptive from the industrial base 
standpoint. At one point, we had more than 12,000 contractors 
working down there. At this point, it is right at 1,000 and 
diminishing. All those people, their skills, expertise go 
elsewhere and frankly may very well go into other industries. 
So we are extremely concerned that there be the kind of 
stability, the kind of long-term programs, and ones that really 
do tap the outer edge of design talent, the kind of R&D that is 
really fundamental for us to maintain our global leadership, 
because that is what is at stake behind the many, many 
companies, universities, et cetera, that are all combining to 
support our space program.
    Mr. Palazzo. How do you replace that lost talent? Is there 
a cost in--financial cost and is there a cost in time as well? 
I mean will there not be a gap before we could possibly replace 
that talent?
    Ms. Blakey. There could very well be and we are quite 
worried about that because as much as we support STEM programs 
at all levels of education, you still have to have the 
opportunities for young people to see in front of them that 
appear to be important and exciting. And if those opportunities 
aren't clear when they are making choices, whether it is high 
school, graduate school, et cetera, they will definitely go 
elsewhere and we do not see the kind of upsurge that we should 
be seeing in engineering and other science talent right now. It 
is a problem. And we have a huge amount of retirees in the 
industry. We have an aging population. So we are going to see a 
real bathtub if you will where we don't have the kind of people 
we need, especially as we have to step it up.
    Mr. Palazzo. Thank you for your answer to my question.
    I would like to just--in all fairness, I do have a couple 
more questions but I am going to yield back my time. But I 
would like to say I do agree with our colleague from Detroit. I 
believe he stepped out. I am all in favor of eliminating the 
capital gains tax but not just for Detroit but for every 
American. So thank you. I yield back.
    Chairman Hall. Okay. The Chair now recognizes Ms. Bonamici 
of Oregon for five minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman. And thank 
you to all the witnesses for your testimony.
    I wanted to follow up on some of the discussion we have 
already been having about education, especially STEM education. 
And Mr. Clarke brought up the skills gap. But I also want to 
talk a little bit about the importance of educating the public 
about the benefits of the Space Program, and there are some 
testimony that has been provided that begins to touch on this.
    Ms. Blakey, you talk in your testimony about how Space 
Programs have improved our lives from vaccination research to 
guiding first responders to weather satellites and missile 
detection satellites. And then Dr. Zurbuchen--I hope I got your 
name right or close--you talk about how do we define the 
purpose and meaning behind exploration in space within a 
society that does not always see a tangible benefit. And Dr. 
Pace, you say that in today's environment with massive debt and 
an anemic economic recovery sustaining discretionary 
expenditures for civil space exploration will be especially 
challenging unless there is a clear rationale linking such 
efforts to broader national interests that can be supported in 
a bipartisan manner over many years.
    Now, I know there has been some discussion already about 
the skills gap and of course STEM education. I want to point 
out that the role of NASA in promoting STEM education should be 
more clearly articulated in NASA's strategic plan. But what I 
would like you to talk about is what, if anything, is the 
industry doing to convey to the public the benefits of space 
exploration? In other words, how can the contributions of our 
Space Program to national interest be communicated not just to 
stakeholders but also to the public at large?
    And Ms. Blakey, if you would like to start, please?
    Ms. Blakey. Well, I thank you very much for the opportunity 
to expand on that a bit because we did put a great deal of 
effort into this brand new report called ``Space in Our World'' 
which, believe me, we will make certain that every Member of 
this Congress and the new Congress has a copy because you are 
all ambassadors on this front. But we have also looked at the 
fact that through social media this could be accessible to 
every American. We have been Tweeting it, we have been putting 
out specific nuggets if you will of examples. We are looking to 
excite young people at the universities because there are 
examples in here of where work in a variety of universities and 
the private sector have kicked off enormous benefits for our 
society.
    So I simply would say that it is something that I think we 
need to do a good job on because I do not believe the public 
has any idea how, in their daily life, everyday life, they are 
over and over again using the work that comes out of our NASA 
programs and our Space Programs broadly, including NRO and some 
of our classified programs. It all moves out eventually into 
the economy and it has been a huge spur for the economy.
    Ms. Bonamici. Thank you. I look forward to seeing the 
report.
    Anyone else care to add to that? Dr. Pace?
    Dr. Pace. I would say from experience of being at the 
university--I teach both graduate and undergraduate students--
and many of them come and take courses in space and space 
policy who are not space enthusiasts. They are international 
affairs students, political science majors, economics people. 
And to me it is always very gratifying as they hear about the 
relationship of space to the economy and the relationship to 
our international relations just how critical they realize this 
subject is.
    Many of them will come and say after going through the 
course they walk outside and they have a new perspective on the 
sky above them. They had no idea that all these things were 
going on overhead--remote sensing, GPS systems, communications 
satellites--how deeply embedded space in the entire critical 
infrastructure of the planet. And it is almost invisible. But 
then once they realize that is there, they take on a new 
appreciation for it. They take on an appreciation for the 
immense symbolism that space has and how it represents our 
strategic relationship with our allies which is Japan and 
Europe, how the Clinton Administration used brining the 
Russians into the Space Station program--very controversial--
but as a way of symbolizing a post-Soviet relationship with 
them.
    So the really macro sweep of international affairs, the 
centrality to the economy is something that students then come 
to know and appreciate. And I don't know how to do that for the 
public as a whole but I know we can certainly do it for 
students and it happens over and over and over again as soon as 
they see that and as soon as it is laid out for them.
    Ms. Bonamici. Well, thank you.
    And Major General, go ahead. I have a few seconds left. Go 
ahead.
    General Sega. Okay. I just wanted to note that our 
committee did look at that as well and NASA in our view is 
making some very positive steps in communication with regard to 
social media for example and their STEM programs. I personally 
was one of those that was inspired as a young boy living in 
northeastern Ohio during the Mercury, Gemini, and Apollo 
programs to studying math and science and ended up taking my 
first airplane ride of my life from Cleveland, Ohio, to Denver, 
Colorado, to go the Air Force Academy. I had never been in an 
airplane prior to that time.
    But in our study, we also looked at the events that are 
clear and compelling such as landing the Curiosity that the 
communications to the public was outstanding. And so in route 
to identifying clear strategic objectives and goals and then 
developing a strategic plan for NASA, some of that story 
becomes clearer and easier to tell.
    Ms. Bonamici. Thank you. Thank you.
    I am out of time. Thank you, Mr. Chair.
    Chairman Hall. The gentlelady yields back her time.
    Congressman Brooks from Alabama, five minutes.
    Mr. Brooks. Thank you, Mr. Chairman.
    Dr. Zurbuchen and also Ms. Blakey, your testimony--in 
particular, Dr. Zurbuchen--highlights the importance of 
maintaining the pipeline of engineers and scientists to ensure 
that we continue to innovate in the future. With respect to 
both of you, what are your recommendations for a program that 
provides opportunities to our graduate and post-doctoral 
students to the benefit of future U.S. leadership in space?
    Dr. Zurbuchen. Thanks so much, Congressman. My personal 
feeling is that such a program would be hugely advantageous for 
this Nation and could in many ways in fact enable ideas that 
were talked about on this panel. I think in general we have 
tremendous interest in our talent--in some of our talent to 
really engage in this, and such a program that you mentioned I 
think will be very positively reacted upon.
    Ms. Blakey. I must also tell you because I have had the 
opportunity to go to almost all of NASA's centers around the 
country as a member of the NASA Advisory Council, I have been 
very, very impressed with the degree to which local university 
talent is integrated into many of the NASA programs. JPL, there 
is practically no one under 30 it appears as you go around the 
entire facility. So I mean there is a big emphasis on trying to 
pull in young people both at the undergraduate and graduate 
level.
    I will also recommend this: if you all haven't seen two 
videos that are out there both stemming from the Curiosity 
rover, I would recommend them. One of course is ``7 Minutes of 
Terror,'' but it has relatively young engineers talking about 
that 7 minutes when they did not know whether in fact the 
Curiosity rover was on Mars. And the other one is a very funny 
rap video, again done by young people in the NASA framework, 
all about how exciting it is to work at NASA and how exciting 
it is to be involved in the space program. Those things are 
getting millions of hits on YouTube. So there is a lot going on 
that some of us--at least I don't often see.
    Mr. Brooks. Do you have any specific suggestions of what 
the Federal Government should be doing to encourage STEM 
education at the collegiate level or postgraduate level?
    Dr. Zurbuchen. My personal recommendation would be to focus 
on these modest and small-scale programs with tremendous 
emphasis and really make sure that, for example, suborbital 
programs and programs that support small-scale missions, as 
well as explorer programs and so forth are funded at the level 
that really makes the substantial impact that it can have 
towards talent development. In my opinion, there is no other 
investment at the collegiate level that will have more impact 
relative to just a hands-on experience in the development of 
talent for industry and for NASA than investments like that.
    Ms. Blakey. I also would say that you see a great deal of 
emphasis now in industry on pairing with universities on 
specifically focused programs that often involve research for 
undergraduates that can take them all the way into the graduate 
level with internships in the summertime in those companies and 
going back into the university where the curriculum is also 
tailored to becoming a professional with a high degree of 
expertise in one or another of these subspecialties. So there 
is a lot more that is no longer generalized but is really going 
into the engineering schools and saying let us help you teach 
so that people come out with very concrete interests and 
ambitions at the end that are highly marketable.
    Mr. Brooks. All right. Congressman Walker, General Sega, 
and Dr. Pace, briefly, legislation has been introduced calling 
for lengthening the term of the NASA Administrator as a way to 
help stabilize NASA's strategic direction. Testimony that we 
have heard makes it clear that the largest problem is not at 
the NASA level; it is a problem with national leadership and 
coming to a consensus between the White House and the Congress. 
In your judgment, would a longer term for the NASA 
Administrator have a positive effect on NASA?
    Mr. Walker. I think separating the NASA Administrator from 
the political structure of the country would be a mistake. I 
think that that kind of a situation would keep NASA out of the 
mainstream of where political thought is going and I don't 
think that that would be the wise course for the Nation at this 
point.
    Mr. Brooks. Thank you.
    General Sega?
    General Sega. Sir, our committee did not address the term 
of the NASA Administrator.
    Mr. Brooks. Do you have a judgment--an opinion?
    General Sega. I don't.
    Mr. Brooks. All right.
    General Sega. I haven't thought through it.
    Mr. Brooks. That is fine. Thank you.
    Dr. Pace?
    Dr. Pace. As an academic, I would answer it depends. I 
would say that I think a slightly longer term or a set term 
could be useful, but I share Congressman Walker's concern about 
making sure that there is acceptance of that on both--the part 
of both the House and the Senate--if that was the judgment of 
both House and Senate that a longer term would be part of that 
stable approach, then I think yes. If there wasn't such 
agreement, then I don't think it would be terribly useful for 
the reasons he described.
    Mr. Brooks. Thank you, Mr. Chairman, for the time allotted. 
And also thank you for the opportunity to serve under your 
leadership over the past two years as Chairman of this 
Committee. It has been a real pleasure.
    Chairman Hall. I thank you. And that might be one thing the 
House and Senate could agree on. They would both be against it 
I think.
    I recognize Mr. Miller, the gentleman from North Carolina.
    Mr. Miller. Thank you, Mr. Chairman.
    Dr. Pace, the answer ``it depends'' would also qualify you 
to be a lawyer.
    Congressman Walker, I was interested in your idea of 
corporate sponsorships. I am kind of old-fashioned. I liked it 
when taxpayers built stadiums that were named after our honored 
war dead instead of selling naming rights. And I just can't 
quite imagine that picture of Neil Armstrong and Buzz Aldrin on 
the moon or Ed White walking in space in spacesuits that made 
them look like NASCAR drivers. So a part of me rebels at it in 
the first place, but second, I worry about the stability of the 
funding. We have heard a lot today about the need for stable 
funding and stable leadership at NASA. Sponsorships, naming 
rights tend not to be a particularly stable source of funding 
because corporations merge, they get acquired, they run into 
trouble, they have to scale back. Will that be a stable source 
of funding?
    Mr. Walker. Well, certainly, there is instability in that 
but, look, the appropriations process has also been a very 
instable--or unstable source of funding for NASA as well. And 
so, this is one way of reaching out to bring additional 
resources into NASA. And it goes further than that. These are 
industries that take a huge interest in NASA's activities. 
People who provide sponsorships then build out. We have been 
talking here at this table about the need for NASA to be 
recognized broadly in the community. It is a way of assuring 
that.
    You mentioned NASCAR. The companies that provide those 
sponsorships take a huge interest in what happens in NASCAR and 
particularly with the teams that they sponsor. And they are a 
part of expanding the acceptance of the NASCAR racing well 
beyond the day's activities on a Sunday at the racetrack.
    And so this is an opportunity for us to have an outreach 
that goes to people who actually then have some skin in the 
game and I think it could be an extremely important way of 
bringing resources into an agency that is badly in need of 
significant resources for the future.
    Mr. Miller. I want to make it clear I wasn't picking a 
fight with NASCAR. I am from North Carolina.
    Mr. Walker. I didn't think you would.
    Mr. Miller. I didn't run for reelection but I do want to be 
able to go out in public.
    There has been a lot of discussion of public-private 
partnerships. Obviously, we do need to think about commercial 
applications of our space technology and our capabilities, but 
I worry. We have had proposals, discussions in this committee 
of privatizing the national weather service, which is entirely 
built with taxpayer-funded research. It is a capability that 
has been entirely provided as a public service built by 
taxpayer funding. And the proposals seem to be coming from a 
company that wanted to buy the National Weather Service, have 
monopoly power, and sell the data for a profit. Since there is 
not an active market in National Weather Services, pricing it 
seemed to be kind of hard and the public--the problem of having 
that information provided for profit by somebody with a 
monopoly power--worried me.
    It struck me as what happened with the sale of state-owned 
enterprises in companies--industries in--as the Soviet Union 
dissolved to oligarchs. I want to make sure we are not taken. 
How do we make sure that we are not taken in these public-
private partnerships and that we aren't giving a monopoly power 
for something that perhaps should be provided as a government 
service?
    Mr. Walker. Well, I would remind you that one of the 
problems we have with the Weather Service right now is the fact 
that they haven't been able to fly their new modern satellites 
and so on, and we risk a gap in a lot of valuable information 
going forward because the government hasn't been capable of 
moving forward. And so, there are problems on both sides.
    I would say to you that that is where the whole issue of 
oversight of all these activities where this Committee would 
play an extremely important role in assuring that the kinds of 
private-public partnerships that were entered into would in 
fact be in the public interest. And there are a number of ways 
that you can write bills to assure that kind of activity. As I 
mentioned before, you can do it through an FFRDC kind of 
mechanism where the Federal Government remains actively 
involved in what those companies are doing, how those companies 
are doing their job, and in fact provides an annual stream of 
funding so that there are ways of structuring this that would 
assure that the public interest was still maintained.
    Mr. Miller. Mr. Chairman, my time is expired.
    Chairman Hall. I thank the gentleman.
    The Chair recognizes the gentleman from California, Mr. 
Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Let me also echo the gratitude that I have for having 
served with you and you have provided excellent leadership to 
this Committee and it has been--over the years, just an honor 
working with you and with those who will be leaving us as well.
    From our last question, let us just note that we have a 
trillion dollars that we are spending more than we are taking 
in. One-third of the federal budget now is debt. I mean we are 
increasing in debt. Thus, if we are going to do things in the 
future and if NASA or any of the things that we are going to do 
in the future are to survive and/or to actually play an 
important role in our country's future, we have got to be 
creative. We have got to be creative and we have got to find 
new approaches, and that I think is the number one commitment 
that we have got, because otherwise, it is just going to fall 
apart.
    And I have a lot to say. That when you have a trillion 
dollars more in debt that you have to deal with, I don't 
believe the American people are going to put NASA on the top of 
their priority list, which means we have to be even more 
creative for those of us who do believe the importance of 
space-related assets.
    Let us just note that for the hearing today we have already 
talked about how this infrastructure, this invisible 
infrastructure that we depend upon--I mean I remember when 
telephone calls cost so much money. It has been space-based 
assets that have brought that down. GPS--people have no idea 
the potential--even future potential of GPS. We are just now 
experiencing that. And of course our national security, 
weather, all that has been talked about. These are all things 
that deal with space-based assets and I believe that NASA 
should be the one who actually is pushing the envelope and what 
space-based assets will benefit humankind in the future.
    Let me just note that one thing that is sure, if you are 
going to have space-based assets, we have got to have an 
environment in space that is capable to use. And today, that is 
under threat. And if there is anything that NASA--that I would 
see that NASA can take a responsibility for along with a 
partnership, a global partnership and lead the way, it is 
making sure that we clear the debris from space so that we can 
have space-based assets. If we don't clear the debris, the 
debris will clear us out of space eventually. And we haven't 
really focused on that. And I think that is something--maybe 
that is one of those challenges that young people and everybody 
else can understand.
    The other challenge perhaps, I don't know if anybody 
noticed--let me see if I have the actual number--yes. Did 
anyone notice 2012XE54? Anybody notice that? Well, that 
happened to have been an asteroid that was discovered Sunday, 
and yesterday, flew between the Earth and the moon. That 
asteroid had the same destructive power as the Tunguska 
asteroid that destroyed hundreds of miles of Siberia about 100 
years ago, yet we didn't discover it until Sunday. Now, those 
are huge challenges that we need to take up. We are not going 
to have space-based assets unless we clear the debris, and we 
are not going to have a safe planet unless we can detect and 
deflect these type of challenges.
    I would hope that NASA, Mr. Chairman--if I have any say in 
it, NASA should be taking up that challenge so that we can use 
space for the betterment of mankind in the future. And you have 
got 45 seconds to comment on my pontification. Bob, do you want 
to----
    Mr. Walker. Well, certainly, the issue of space debris is a 
crucial issue. The commercial industry is facing all kinds of 
problems these days with monitoring that, and much of what we 
monitor is larger than some of the particles that could 
actually cause real damage in space. And so that is a real 
problem that needs to be addressed. And there are actually some 
people out there in the private sector that have some 
interesting ideas about how we could do that.
    General Sega. As our committee looked at the issue of 
asteroids, I commented on the human mission to them, but I also 
recognize the importance of increasing our understanding of the 
asteroids, and currently, there is a satellite that is in that 
area.
    Mr. Rohrabacher. Well, thank you very much.
    Chairman Hall. The gentleman yields back. I don't believe 
we--well, yeah, we have one more here.
    The Chair recognizes Mrs. Edwards from Maryland.
    Ms. Edwards. Thank you, Mr. Chairman.
    And I just want to echo how delightful it has been to have 
you as our Chairman for the past couple years. I really both 
enjoyed your company and your service on the Committee and so I 
thank you for that and for tolerating me occasionally.
    I was just--I am a Twitter follower of NASA's and I noted 
that NASA has about 3.2 million followers, which is not 
insignificant. It is not as much as the President or Oprah, but 
it is more than the First Lady and RG3 and NASCAR. And so there 
are people out there who really have an interest in NASA and 
value NASA and how we can capture that I think so that it also 
translates into support on a fiscal level I think is the 
challenge given the range of activity that we expect of the 
Agency. And just this--you know, over those last couple hours 
or so as I am following my Twitter feeds, then I noted that 
one, NASA assures us that the world is not going to end on 
December 21 in case anybody wondered, and that the hashtag 
Curiosity was the fifth-most followed or used hashtag over this 
last year, which says to me that, especially the Curiosity 
rover--it is striking some kind of chord in the public. And I 
think that is actually a good thing for us because I think it 
is important for the public to embrace NASA.
    When I was growing up, our embrace of the Agency was 
because of the Apollo missions. It was sitting in, you know, 
kindergarten and 1st grade and whatever those other grades and 
watching the liftoffs. And that inspired a generation and 
inspired a nation. And I think Administrator Blakey, you 
pointed out that it requires that kind of public inspiration in 
order for us to generate the support for the other areas of the 
work that the Agency does.
    I want to think outside the box in a way about what it is 
that we can do to strengthen the fiscal house of the Agency, 
and one of the things I would like to look at, especially where 
science is concerned, is that the difficult the Agency has in 
doing science on a year-by-year basis, it really doesn't make 
any sense. It is not what you generally find in university and 
other kind of research where you know as an investigator where 
you are starting, what your resources are over a period of 
time, and then you can plan out the investigation.
    And some of what we saw, for example, with the James Webb 
Space Telescope is that with all of these different--and there 
were a lot of problems--but all of these different levels of 
funding from one year to the next year and not knowing and 
reprogramming and things that, in fact, you have instruments 
that sit around that aren't supposed to be sitting here because 
they are supposed to be up there, and then you actually end up 
over a course of time spending a lot more money. And so I 
wonder if I could hear from any of you about the idea with 
respect to scientific funding, agency funding, that if we went 
to, you know, a two year, a multiyear funding stream just for 
these programs understanding that it is different than funding 
other kinds of things that the government does. And I just 
wonder if you have some comments about that?
    Dr. Zurbuchen. I have currently eight Ph.D. students who 
are supported by funding streams that you are talking about. I 
know firsthand the difficulty of managing these young people's 
lives in an environment in which decisions can happen at--on a 
week-to-week basis and all of a sudden their certain funding 
stream disappears. Once we lose a Ph.D. student like this, for 
example, we will do whatever we can as a university to cover 
that Ph.D. student through, but we have many cases, especially 
kind of in areas where space interacts with biology in the past 
where we lost something like 30--just in our university alone 
30 Ph.D. students in a queue that never came back. And so tools 
that will create stability in that regard would that be 
tremendously I think considered a potential fashion from people 
like me and others.
    Ms. Edwards. Congressman Walker, I wonder if you could 
comment. You have been in this place on an idea like that and 
where we might be able to take it.
    Mr. Walker. Well, I have long believed that we do great 
damage to our science programs with annual appropriations 
process. The fact is that you do have to have a long-term 
outlook when you are doing science whether it is space science 
or bench science. And so we have a real problem in that we have 
too often scrubbed the authorization process in favor of the 
appropriations process. I mean one of the great reforms around 
this place that would work would be to actually enforce the 
rules of the Congress that say that you have to have an 
authorization in place before you can pass an appropriation 
because the fact is we need to have the stability of long-term 
set policy in order to do science well. And by abandoning 
authorization process too often, we have put the policy 
decisions in the hands of the appropriators and they have a 
one-year horizon. One-year horizons do not work in science.
    Ms. Edwards. Thank you, Mr. Chairman.
    Ms. Blakey. If I might, I would mention one other thing 
because there is good precedent for this in terms of some 
defense programs. The industry would like to see more use of 
multi-year in terms of complex development programs, but when 
you look at those in the DOD arena, you do see that it has been 
an excellent force for holding down costs and having the kind 
of stability that is needed. So there is precedent.
    Chairman Hall. The Chair at this time recognizes I believe 
Mr. Hultgren of Illinois for five minutes.
    Mr. Hultgren. Thank you so much. And Chairman, I just want 
to also thank you for your great service and your great work as 
Chairman. I think it has been really a good couple of years. I 
have sure enjoyed my time on the Science Committee and wish I 
could stay longer.
    I also have enjoyed seeing you each time in Committee. It 
reminds me of my funeral director father, what he often says is 
that it is always better to be seen than to be viewed. And so I 
appreciate your--that is my dad's line--but great to be with 
you and appreciate all that you have done for us and for our 
Committee here.
    I also want to echo and agree with my friend and colleague 
Congresswoman Edwards that we have got to start thinking more 
long-term when it comes to NASA and science. I think it really 
puts us at a disadvantage to so many other nations who are 
thinking 5, 10, 20 years in the future, and we are lucky if we 
are talking one year. More oftentimes, we are talking about 90 
days. You know, like the continuing resolution that is just 
kicking something out a little bit further. We have got to 
change that and we have got to reach across the aisle to make 
sure that that happens.
    So thank you all for being here. This is such an important 
discussion and something that I am passionate about. I do want 
to just ask a couple quick questions with the few minutes that 
I have. First, General Sega, I wonder if I could address to you 
your thoughts. Would the NRC report have had the same tenor and 
conclusions if President Obama had not cancelled the 
Constellation Program four years ago?
    General Sega. The factors that brought us to a point that 
we talked about in terms of transition was also the--
terminating the shuttle program and then something else follows 
it, and the ability to have a consensus on strategic objectives 
and goals, this longer-term thinking is important and--to be 
able to have it for long-term. Clearly, it costs us 
Administrations; it costs us terms in Congress. And so I--the 
study was prompted by Congress, clearly, to NASA and then to 
the NRC, but the issue of the longer-term piece, I think that 
would be an enduring theme regardless of some other events.
    Mr. Hultgren. I wonder if I could ask the other folks here 
starting with Dr. Pace if you wouldn't mind your thoughts of 
how you think these results and conclusions would be different 
if the Constellation program hadn't been cancelled.
    Dr. Pace. Well, I think there is really two parts to the 
disruptions that occurred. One is the Constellation program 
itself and the industrial base impact, and I think certainly we 
would have had maybe a slightly different tenor if that program 
had not been cancelled. But the deeper problem really is the 
policy. Okay? The National Space Policy in 2010 I think is 
actually quite a good document. I think it is very thoughtful, 
very balanced; there is a lot of good material in it. The part 
that, as a policy professional, sticks out for me is the 
section on civil space exploration, the asteroid and Mars 
aspect of it, which to my mind really comes out of a bit of 
left field. It didn't have an international context. It didn't 
have a commercial context. It wasn't mindful of the industrial 
base realities. And so it is really distinct from the rest of 
the policy.
    I think if that mistake hadn't been made, I think you could 
have had a more rational discussion about how to either 
moderate, change, turn, revamp the Constellation program into a 
way that would have been acceptable to the Administration going 
forward. So as in most things, it is really policy choices that 
are at the root of the issue. What is the strategy you are 
following? Then, the programmatic outcomes and the budgetary 
outcomes really follow from that. So that is where I would 
really point.
    Mr. Hultgren. Thank you. I ask the other three members if 
you would have any thoughts on that. I have just about a minute 
left but----
    Ms. Blakey. Certainly, the variables at the industrial 
base, the companies involved that have had to deal with this, 
it has been very difficult. We feel very strongly moving 
forward that it is important to maintain both the emphasis on 
commercial crew, commercial resupply for ISS--we have got to 
keep that on track--and at the same time have the ability 
through SLS or Orion to get to deep space. Those two things are 
parallel tracks and they are both very important.
    Mr. Hultgren. Yes.
    Mr. Walker. I just would comment that I think it has to be 
recognized that financially, the Constellation program was an--
in an unsustainable cost profile and it was about to eat alive 
the science programs and a number of other things inside of 
NASA at the kinds of costs that it was accumulating. And so, 
you have to look at it in terms of where would we be in terms 
of those costs undercutting other NASA programs if it had not 
gotten the kinds of money that Chairman Hall referred to 
earlier? Of course it could be done if you gave NASA an 
additional $3 billion. No one believed that NASA was going to 
get $3 billion at that point.
    Mr. Hultgren. Well, again, thank you all for being here. I 
think these are important discussions. My hope is that we can 
continue those and really have a great vision for NASA and from 
NASA into the future. So with that, I--again, Chairman, thank 
you for all that you have done for us. I appreciate your 
service so much and your friendship and look forward to working 
together for a long time to come. Thank you.
    I yield back.
    Chairman Hall. Thank you. You have my assurance that we 
will work together. And for your undertaker father, let me pass 
on one to him that my undertaker uses on me. He says don't 
worry about it; if you don't like flowers, they will finally 
grow on you.
    Now, I think Mr. Clarke has asked for recognition.
    Mr. Clarke. Thank you, Mr. Chair. I really appreciate the 
opportunity. And I briefly wanted to ask everyone for their 
comment on how NASA, long-term strategically, can work more 
effectively with the private industry. That is an open-ended 
question but I will focus on two specific areas: one, with 
technology transfer on how the transfer of NASA's research to 
private industry, maybe to other federal agencies could play a 
larger role in our strategic vision for NASA. General Sega, you 
could also address that if you wish. And the other issue is how 
we can best restructure NASA in a way that would likely need 
Congressional authorization. These are issues that were raised 
by Chairman Walker with his illustration of let us say a 
sponsorship of one of our missions, although I prefer the 
wolverine rover painted in maize and blue I think would be more 
appropriate than the Go Daddy rover.
    But in any event, Congressional authorization needed to 
restructure--to promote the restructuring of NASA that could 
lead to more effective private partnerships and how do we 
strengthen the role of technology transfer in NASA's strategic 
mission?
    Mr. Walker. Well, quickly, I will give you one. There are a 
number of ways that you could do this, but the Aldridge 
Commission recommended that the centers be turned into FFRDCs 
like operations, that they would have to be modified, that not 
all centers do research and development. So that they would be 
structured in a way that would allow them to receive both 
public money and private money into their operations. And I 
think that something like that is certainly one of the places 
it has to look. Look, I mean one of the things that the NRC 
said was that the alternative to that may have to be the 
closing of some of the centers, or, the reduction of the size 
of NASA. This is the way that you can begin to look at how you 
keep the centers in place, how do you make them into viable 
economic units inside the communities that they have and for 
the Nation? And, I think that this Committee needs to look at 
how you might restructure them in a way that allows them to 
attract both private and public money.
    Chairman Hall. All right. Does the gentleman yield back?
    Mr. Clarke. Mr. Chair, before I do that, I wanted to thank 
Ranking Member Johnson for her steadfast leadership providing 
me the great opportunity of participating as a freshman Member 
of this panel. Chairman Hall, you are a true gentleman in every 
respect in how you have governed this Committee in a fair and 
balanced way. It has been an honor to serve with you and all of 
you in this country. Thank you so much.
    Chairman Hall. Thank you. Ms. Johnson, I agree with you 
completely. You are a gentleman. Thank you.
    Now, the Chair recognizes Dr. Harris for five minutes.
    Dr. Harris. Thank you very much, Mr. Chairman.
    I want to thank the panel for being here today to review 
really what the strategy is going forward. I am going to ask 
for comments on a very particular aspect, and Dr. Zurbuchen and 
Dr. Pace really, and it leads off what Chairman Walker had said 
that at some point there is important input from manned 
missions. But to be honest, a lot of the critical things that 
we are doing defense-related, weather-related, really there is 
no manned input necessary. And I am an anesthesiologist. I work 
in the operating room. The robotic surgery we are doing you 
literally could do from around the world. You could have the 
surgeon sitting around the world from where that machine is 
actually performing an intricate operation with tactile 
feedback. I mean--and I don't remember the fancy scientific 
name for it, so you actually feel what the tissues feel like, a 
lot of inputs that the Chairman indicates that human input 
actually now is being gained. I mean there are robotics classes 
and then clubs in their high school. I mean this is to some 
extent the future.
    Given the expense of the redundancy necessary in a manned 
program and our need to get the most training and research and 
engineering experience knowledge for the dollars we spend at 
NASA, isn't it time to say that maybe manned programs should be 
really rare and reserved for rare occasions because they just 
don't deliver the bang for the buck--I am talking about basic 
science knowledge.
    And, Dr. Zurbuchen, your testimony is excellent. I think it 
points out that we need to know these things and there are 
other societal benefits. But to the two doctors on the panel, 
isn't that really the way we ought to be thinking of going if 
our basic expansion of knowledge with--through a government-
funded entity like NASA--and of course preserving defense-
related, weather-related, all the other things that we do, is 
that the way that we should go?
    Dr. Zurbuchen. My personal feeling is that there is 
tremendous value over time that has come both from the manned 
and from the robotic-type missions. I do believe that robotics 
will have --on the time scale of the next 20 years or so 
probably if we make predictions, which as you know is always 
hard, but if you make predictions, will have more economic 
impact on how we are going to drive our cars, how we are going 
to fly our planes, and how surgeries are being performed and 
human space missions. It is my belief, though, that if you go 
to a time scale of 30 or more years that that prediction is 
going to be a lot tougher to make. I believe that in many ways, 
once you put the human in the loop and especially if you go to 
places where you do not know where you are going, kind of the 
true exploration, that things happen on the innovation front 
that really help us uncover aspects of our experience and also 
aspects of technology that will have tremendous impact in long-
term.
    The same certainly happened on the Apollo side. It is not 
the case that even though the examples you are mentioning are 
truly compelling, there are many aspects to our lives that did 
come from the human side of NASA as well. So basically, if you 
asked the question as clearly as you did, should we just kind 
of forget all about it? I certainly would not subscribe to that 
kind of recommendation.
    Dr. Harris. And I want to emphasize not forget it but lower 
the emphasis a little bit is really--Dr. Pace.
    Dr. Pace. Sure. I think first of all you have to make a 
distinction between sort of science and exploration. I mean 
NASA is more than just a science agency. It also is an 
exploration agency. It is a tool of U.S. foreign policy. So it 
does a whole bunch of things other than just science. If we are 
just looking at science as defined, say, in the decadal 
surveys, then it is really straightforward. Okay, robotics 
systems are what you do. But the reason why you do humans in 
part is for exploring the unknown, by literally putting people 
in an unusual or an alien situation, you learn things that you 
wouldn't learn if you stayed at home.
    There is a wonderful example of looking at salmonella 
viruses and how they have become more virulent in space in 
zero-g, and these are experiments to be done in a space 
station, and this means there is a gene sequencing issue. And 
if we can figure out how to control that, we can have a 
potential vaccine for salmonella. Okay. That is not something 
that would ever really have emerged in a ground-based 
laboratory. It emerges when we put life sciences, people in a 
very, very different environment to go into the unknown.
    Human space flight is probably the most interdisciplinary 
scientific and technical activity that this country can engage 
in, much broader than biotech, IT, any of the other particular 
fields because you really have all fields have to come together 
to pull off a successful mission. It is incredibly, incredibly 
hard. But that is where really the benefit is from pushing into 
the unknown. So I would say as part of your portfolio of 
activities that humans have to be part of it because they do 
represent this really challenging interdisciplinary problem 
that is really unique. And it should be part of our national 
portfolio because there is nothing that replaces the symbolism, 
the emotion, the connection that it makes not only to the 
American people but also to our partners around the world.
    The International Space Station is not only an engineering 
triumph but it also a massive diplomatic triumph that has paid 
great benefits I think for this country already in terms of 
building relationships around the world.
    So the question for NASA and human space flight is what do 
you want it to be? What national interests do you want it to 
serve? If it is only science as defined in the decadal surveys, 
then I think you can go down a purely robotic path. But I think 
the vision for NASA is much bigger than just that. It is a 
science agency but it is also so much more.
    Dr. Harris. Thank you very much. And I thank the panel and 
thank the Chairman for the opportunity to serve on the 
Committee.
    Chairman Hall. I have a feeling that General Sega wants to 
add something. You can't turn a general down.
    General Sega. Well, thank you. I just wanted to add to--the 
question itself poses one of the key points of our study is 
that national consensus determining the strategic goals and 
objectives are important, and from that would flow then the 
balance and integration perhaps of exploration, science, 
technology, and aeronautics for NASA.
    Another point as--Congressman Walker talked about a report. 
I just want to clarify. One of our options was to institute an 
aggressive restructuring program to reduce infrastructure and 
personnel cost and improve efficiency. We didn't go into any 
detail of whether that was an option one would choose or how to 
do it. So thank you very much, sir.
    Chairman Hall. I thank you very much. And the gentleman has 
yielded back.
    I want to thank everyone. Thank you for your time of 
preparation, travel, and presentation. And all the staff here, 
I want to thank these wonderful staffs that make this world go.
    And I would like to ask unanimous consent that as we close 
today that we close in memory of the life of Gabrielle Giffords 
on her life and remember the death of Neil Armstrong for a 
moment of silence. Amen.
    We are closed.
    [Whereupon, at 12:36 p.m., the Committee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

                   Answers to Post-Hearing Questions

Responses by Maj. Gen. Ronald Sega

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by The Honorable Robert Walker

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by The Honorable Marion C. Blakey

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Thomas Zurbuchen

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Scott Pace

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              


                   Additional Material for the Record

  Submitted Statement for the Record by Representative Jerry Costello
    The NASA Authorization Act of 2010 states that ``The National 
Aeronautics and Space Administration is and should remain a multi-
mission agency with a balanced and robust set of core missions in 
science, aeronautics, and human space flight and exploration.''
    Last week, a National Research Council (NRC) panel found that 
NASA's ability to sustain that balanced portfolio is in jeopardy. This 
should not be a surprise. As this Committee has reiterated on multiple 
occasions, for the past several years, NASA has been underfunded.

    There is a mismatch between what we expect NASA to do and how much 
we fund it.

    This is unfortunate, because NASA is a critical part of the 
Nation's research and development enterprise, as well as a worldwide 
symbol of American technological prowess and the global leader in space 
and aeronautics. That status is no longer assured.
    More troubling is the NRC panel's conclusion that ``The approach to 
and pace of a number of NASA's programs, projects, and activities will 
not be sustainable if the NASA budget remains flat, as currently 
projected.''
    I understand that we are in tough economic times. But I hope that 
this hearing will illustrate how NASA provides a sizeable return on the 
taxpayer's investment through its balanced portfolio. So I am eager to 
hear from our witnesses on how we can ensure that NASA maintains its 
leadership in space science, aeronautics research, and human space 
exploration.
    In my final days as Ranking Member of the Space and Aeronautics 
Subcommittee, let me say that over the years, I have seen NASA do great 
things supported by a dedicated workforce and able contractors.
    If we in Congress do our part, a flight test of the Orion Capsule 
in 2014, initial test of the Space Launch System in 2017, launch of the 
James Webb Telescope in 2018, and completion of critical R&D in support 
of NextGen by 2018--among other important tasks--are all possible and 
NASA will continue reaching for the stars and helping to improve life 
here on Earth.

                                 <all>

</pre></body></html>
